<html>
<title> - H.R. 1462, TO CONTROL OR ERADICATE HARMFUL, NONNATIVE WEEDS ON PUBLIC AND PRIVATE LAND</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
H.R. 1462, TO CONTROL OR ERADICATE HARMFUL, NONNATIVE WEEDS ON PUBLIC 
                           AND PRIVATE LAND

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 19, 2001

                               __________

                           Serial No. 107-42

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                -------
77-881              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 19, 2001....................................     1

Statement of Members:
     Craig, Hon. Larry E., a United States Senator from the State 
      of Idaho...................................................     3
        Prepared statement of....................................     5
    Christensen, Hon. Donna, a Delegate to Congress from the 
      Virgin Islands.............................................     2
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Beck, Dr. K. George, Professor of Weed Science, Colorado 
      State University, Ft. Collins, Colorado....................    26
        Prepared statement of....................................    27
    Carroll, Michael, Vice President, North American Weed 
      Management Association, Ft. Collins, Colorado..............    50
        Prepared statement of....................................    51
    Rains, Michael T., Deputy Chief, State and Private Forestry, 
      Forest Service, U.S. Department of Agriculture, Washington, 
      DC.........................................................    18
        Prepared statement of....................................    19
    Randall, Dr. John, Director, Wildland Invasive Species 
      Program, The Nature Conservancy, Washington, DC............    34
        Prepared statement of....................................    36
    Riley, Dr. Terry Z., Director of Conservation, Wildlife 
      Management Institute, Washington, DC.......................    54
        Prepared statement of....................................    55
    Skinner, Bob, Rancher, National Cattlemen's Beef Association, 
      Jordan Valley, Oregon......................................    29
        Prepared statement of....................................    30
    Tate, Dr. James, Jr., Science Advisor, U.S. Department of the 
      Interior, Washington, DC...................................     9
        Prepared statement of....................................    11

Additional materials supplied:
    American Farm Bureau Federation, Statement submitted for the 
      record.....................................................    63
    Colorado Department of Agriculture, Letter submitted for the 
      record by Hon. Joel Hefley.................................    65
    Florida Farm Bureau Federation, Letter submitted for the 
      record by Hon. Joel Hefley.................................    68
    Montana Department of Agriculture, Letter submitted for the 
      record by Hon. Joel Hefley.................................    70
    Weed Science Society of America, Letter submitted for the 
      record by Hon. Joel Hefley.................................    72
    Wyoming Department of Agriculture, Letter submitted for the 
      record by Hon. Barbara Cubin...............................    75


  H.R. 1462, TO REQUIRE THE SECRETARY OF THE INTERIOR TO ESTABLISH A 
 PROGRAM TO PROVIDE ASSISTANCE THROUGH STATES ELIGIBLE WEED MANAGEMENT 
ENTITIES TO CONTROL OR ERADICATE HARMFUL, NONNATIVE WEEDS ON PUBLIC AND 
                              PRIVATE LAND

                              ----------                              


                         Tuesday, June 19, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to other business, at 10:07 
a.m., in room 1334, Longworth House Office Building, Hon. Joel 
Hefley [Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. The Subcommittee on National Parks, Recreation, 
and Public Lands will now hear testimony on H.R. 1462. This 
important legislation, which I introduced, represents my 
attempt to assist thousands of increasingly desperate ranchers, 
farmers and Federal land managers throughout the country who 
have been and continue to be under siege from noxious, non-
native weeds. The goal of H.R. 1462 is clear, to get the money 
directly to the folks at the local level who are on the front 
lines combating these weeds. I think it is clear from reading 
the testimony of today's witnesses that this is a major problem 
and one that requires vigilance and a comprehensive approach 
from all levels of government.
    To illustrate the seriousness of this national weed 
epidemic, I need only to turn to some of our witness' 
testimony. According to Dr. Tate's testimony, invasive plant 
species are estimated to cost more than $20 billion per year in 
economic damage and affect millions of acres of private and 
public land. Other estimates put it as high as $130 billion 
annually. Moreover, according to Dr. Riley's testimony, some 
exotic weed populations increase about 14 percent per year, and 
left unchecked can easily overtake the land, and displace 
native plant populations rendering the land useless for 
ranchers and farmers.
    Specifically, H.R. 1462 would require the Secretary of the 
Interior to establish a grant program to provide assistance 
through States to eligible weed management entities to control 
or eradicate harmful, non-native weeds on public and private 
land. I realize to most folks in the audience or to those 
listening to this hearing that noxious weeds may not seem as 
important as some issues, but to those of us who have seen the 
devastation caused by these insidious weeds of pastures that 
were once productive, it is indeed a major problem that 
requires greater attention from Congress.
    Mr. Hefley. I would like to thank Senator Craig and all of 
our witnesses for being here today. I look forward to your 
suggestions on how the Federal Government might be a more 
effective player in the fight against these unwanted pests. I 
now turn to our Ranking Member, Mrs. Christensen.
    [The prepared staement of Chairman Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
              National Parks, Recreation, and Public Lands

    Good morning and welcome to the hearing today. This morning, the 
Subcommittee on National Parks, Recreation, and Public Lands will hear 
testimony on H.R. 1462.
    This important legislation, which I introduced, represents my 
attempt to assist thousands of increasingly desperate ranchers, 
farmers, and Federal land managers throughout the country who have 
been, and continue to be, under siege from noxious, non-native weeds. 
The goal of H.R. 1462 is clear - get the money directly to the folks at 
the local level who are on the front lines combating these weeds. I 
think it is clear from reading the testimony of today's witnesses that 
this is a major problem, and one that requires vigilance and a 
comprehensive approach from all levels of government.
    To illustrate the seriousness of this national weed epidemic, I 
need only to turn to some of our witnesses testimony. According to Dr. 
Tate's testimony, invasive plant species are estimated to cause more 
than $20 BILLION per year in economic damage and affect millions of 
acres of private and public land - though other estimates put it as 
high as $130 billion annually. Moreover, according to Dr. Riley's 
testimony, some exotic weed populations increase about 14% per year and 
left unchecked, can easily over take the land and displace native plant 
populations rendering the land useless for ranchers and farmers.
    Specifically, H.R. 1462 would require the Secretary of Interior to 
establish a grant program to provide assistance through States to 
eligible weed management entities to control or eradicate harmful, 
nonnative weeds on public and private land.
    I realize to most folks in the audience or to those listening to 
this hearing that noxious weeds may not seem as important as some 
issues, but to those of us who have seen the devastation caused by 
these insidious weeds of once productive pastures, it is indeed a major 
problem that requires greater attention from Congress.
    I would like to thank Senator Craig and all of our witnesses for 
being here today. I look forward to your suggestions on how the Federal 
Government might be a more effective player in the fight against these 
unwanted pests.
                                 ______
                                 

  STATEMENT OF THE HONORABLE DONNA CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I, too, want to 
welcome our panelists and extend a special welcome to Senator 
Craig, who is with us here this morning. Mr. Chairman, I 
appreciate your interest in invasive species, as evidenced by 
the introduction of H.R. 1462, the Harmful, Non-Native Weed 
Control Act of 2001.
    Invasive species, which include non-native weeds, are a 
serious and growing problem in the United States. I do not 
believe there is an area of the country that has not had some 
problem with invasive species. They have caused problems in the 
Virgin Islands and I am sure many other members could tell 
stories, as well. In fact, with several Committee members, 
invasive species are an extremely serious environmental issue 
in their districts. Much of the testimony that has been 
provided for today's hearing outlines a number of concerns and 
problems with H.R. 1462.
    I am also aware that other legislative proposals dealing 
with invasive species are being developed. However, it is my 
hope that today's hearing and other work being done on invasive 
species will provide us with a sound foundation on which to 
address this issue of invasive species on a consensus basis. 
Mr. Chairman, I appreciate the presence of all of our witnesses 
here today, and I look forward to their testimony on this 
important issue. Thank you.
    Mr. Hefley. Thank you very much, and, Senator Craig, 
welcome home. We are glad to have you back, and after the 
activities of the Senate in recent times, this must seem like a 
respite to you, to come back to your roots. We appreciate your 
being here and we will turn the time over to you.

STATEMENT OF THE HONORABLE LARRY CRAIG, A UNITED STATES SENATOR 
                    FROM THE STATE OF IDAHO

    Senator Craig. Well, Mr. Chairman, thank you very much. Let 
me also thank Congresswoman Christensen. It is great to see 
Congressman Kildee again. It is always important that I be here 
to support my congressmen, and I appreciate them being here 
this morning, both Congressman Simpson and Congressman Otter. 
They, too, understand, as I think as you do, Mr. Chairman, the 
kind of situation that we have as it relates to weeds and our 
public lands.
    Earlier this year, I was joined by several colleagues in 
the Senate in introducing the Harmful, Non-Native Weeds Control 
Act of 2001. This legislation is similar to your legislation, 
H.R. 1462. Ours is S 198. I have enjoyed working with you, Mr. 
Chairman and your staff, on this issue, and I look forward to 
working with you on others. We worked successfully together 
last year in the passage of S 910, which I called A Stop The 
Weeds At The Border Law, and now, of course, we are going 
inside to look at how we manage the problem.
    I have stood before Congress for the past 3 years, pushing 
legislation and speaking out on the noxious weed issue. I know 
some members, at least on my side, are growing tired of hearing 
about the issue, Mr. Chairman. As westerners, we have seen 
firsthand the destruction caused when non-native weeds are not 
treated and are left to take over native species. Because of 
this, we understand the need for the Federal Government to be a 
partner in addressing this problem.
    Non-Native weeds are a very serious problem on both public 
and private lands across the nation. They are particularly 
troublesome in the West, where much of our land is entrusted to 
the management of the Federal Government. Like a slow burning 
wildfire, in my opinion, noxious weeds take land out of 
production, force native species off the land, and interrupt 
the commerce and the activity of all those who rely on the land 
for their livelihood. You have mentioned farmers and ranchers 
and recreationalists and others.
    Non-Native weeds threatened fully two-thirds of all of the 
endangered species, and are now considered by some experts to 
be second in importance to the threat to biodiversity on our 
public lands. In some areas, Spotted Knapweed grows so thick 
that big game, like deer, simply cannot move through it and 
cannot use that area for foraging purposes. Noxious weeds also 
increase soil erosion and prevent recreationalists from 
accessing the land that is infested with these kinds of weeds.
    Because of these problems, I am committed to stopping the 
spread of non-native weeds. For the last few years, I have 
worked with the State of Idaho in finding funding for the Idaho 
Strategic Plan for the Managing of Noxious Weeds. This program 
has been very successful in Idaho, and was the basis for the 
Harmful, Non-Native Weeds Control Act. Let me tell you briefly 
how the program works in Idaho. The Department of Agriculture 
in Idaho administers the Strategic Plan for Managing Noxious 
Weeds through a collaborative effort involving private 
landowners, State and Federal land managers, State and local 
governmental entities, and other interested parties.
    Cooperative weed management areas are the centerpiece of 
the strategic plan. Cooperative weed management areas cross 
jurisdictional boundaries and to bring together all of the 
landowners, land managers and interested parties to identify 
and prioritize noxious weeds in a strategy within the 
cooperative management, weed management area, in a 
collaborative manner.
    The primary responsibility for the State Department of 
Agriculture is to provide the coordinated administrative 
support, facilitation and project cost share funding for these 
collaborative efforts. Idaho already has a record of working in 
a collaborative way on this issue. The Harmful, Non-Native 
Weeds Control Act will build on the progress that we have made 
in Idaho and other States, and establish the same formula for 
success in States who wish to use it.
    This is how the program works in Idaho. Other States have 
programs that are not exactly the same as Idaho's, but equally 
effective. When developing this legislation, we wanted to 
create a Federal program that worked with existing State weed 
control programs, created incentives for more States to develop 
weed control plans, and to foster greater community 
collaborative processes in identifying this problem. I think we 
have achieved just that. The Harmful, Non-Native Weeds Control 
Act provides a mechanism to get funding to the local level, 
where weeds can be fought in a cooperative way and a 
collaborative way with all of the different entities involved.
    Noxious weeds do not recognize property boundaries. Mr. 
Chairman, as you know, in the West over the last several 
decades, property boundaries were the problem. We had come to a 
point where we were not managing the weeds on public lands, and 
literally, they had taken off like the wildfires I had 
referenced. So those on private lands adjacent to the public 
lands found themselves in almost a defenseless posture. They 
could treat their lands and treat their weeds, only to have 
them immediately affected again by the movement of a bird or 
the movement of wind.
    So, to win the war on weeds, clearly all parties have to be 
involved, private, State and Federal. Counties have had weed 
control programs in most States for the last good number of 
years, and yet, struggle as they might, they simply have lost 
the battle and the weeds really have become the dominant force. 
As a result of that, Idaho looked toward building this 
cooperative, collaborative model, and in so doing it, they have 
found that it works. I have worked over the last good number of 
years to help them fund it and to sensitize the Forest Service 
and the BLM and other Federal land management agencies to their 
responsibility.
    Now, by creating a new template of the kind that you are 
proposing in your legislation and we are proposing in ours, we 
bring all of these entities together under the law without 
wiping out State authority, but in fact, incorporating State 
authority and giving them a primary responsibility and role in 
working with our Federal agencies. I think this is a model that 
can work. It is supported across the Nation by most all who are 
involved in the battle against non-native species of weeds, and 
we will work with you to make this happen.
    We appreciate the hearing you are holding. We would hope 
that you could expedite, as we will try to do in the Senate. 
This is an issue that really does deserve some Federal 
direction and some Federal responsibility. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Craig follows:]

Statement of the Honorable Larry E. Craig, a United States Senator from 
                           the State of Idaho

    Mr. Chairman, thank you for holding this hearing today to raise 
awareness on the issue of invasive weeds and to discuss a solution we 
are both working on. Earlier this year I was joined by several 
colleagues in the Senate in introducing Harmful Non-Native Weed Control 
Act of 2001, legislation similar to your bill. I have enjoyed working 
with you and your staff on the Harmful Non-Native Weed Control Act and 
I look forward to working together to pass this legislation into law.
    I have stood before Congress for the past three years pushing 
legislation and speaking on the issue of noxious weeds. I know some 
members tire of hearing me bring up this issue, but Mr.. Chairman, as 
Westerners, we have seen first hand the destruction caused when non-
native weeds are not treated and are left to over take native species. 
Because of this we understand the need for the Federal government to be 
a partner in addressing this problem.
    Non-native weeds are a serious problem on both public and private 
lands across the nation. They are particularly troublesome in the West 
where much of our land is entrusted to the management of the federal 
government. Like a ``slow burning wildfire,'' noxious weeds take land 
out of production, force native species off the land, and interrupt the 
commerce and activities of all those who rely on the land for their 
livelihoods--including farmers, ranchers, recreationists, and others.
    Non-native weeds threaten fully two-thirds of all endangered 
species and are now considered by some experts to be the second most 
important threat to bio-diversity. In some areas, spotted knapweed 
grows so thick that big game like deer will move out of the area to 
find edible plants. Noxious weeds also increase soil erosion, and 
prevent recreationists from accessing land that is infested with 
poisonous plants.
    Because of these problems I am committed to stopping the spread of 
non-native weeds. For the last few years, I have worked with the State 
of Idaho to find funding for the Idaho Strategic Plan for Managing 
Noxious Weeds. This program has been very successful in Idaho and was 
tile basis for the Harmful Non-Native Weed Control Act.
    Let me tell you how the program works in Idaho. The Department of 
Agriculture in Idaho administers the Strategic Plan for Managing 
Noxious Weeds through a collaborative effort involving private 
landowners, state and federal land managers, state and local 
governmental entities, and other interested parties. Cooperative Weed 
Management Areas are the centerpiece of the strategic plan. Cooperative 
Weed Management Areas cross jurisdictional boundaries to bring together 
all landowners, land managers, and interested parties to identify and 
prioritize noxious weed strategies within the Cooperative Weed 
Management Areas in a collaborative manner. The primary 
responsibilities of the State Department of Agriculture are to provide 
coordination, administrative support, facilitation, and project cost-
share funding for this collaborative effort. Idaho already has a record 
of working in a collaborative way on this issue--The Harmful Non-Native 
Weed Control Act will build on the progress we have had in Idaho and 
other states, and establish the same formula for success in other 
states.
    This is how the program works in Idaho. Other states have programs 
that are not exactly the same as Idaho's, but equally effective. When 
developing this legislation we wanted to create a federal program that 
worked with existing state weed control plans, created incentive for 
more status to develop weed control plans, and fostered greater 
community collaboration to address this problem. I think we have 
achieved just that. The Harmful Non-Native Weed Control Act provides a 
mechanism to get funding to the local level where weeds can be fought 
in a collaborative way.
    Noxious weeds do not recognize property boundaries, so if we want 
to win this war on weeds, we must be fighting at the federal, state, 
local, and individual levels. The Harmful Nonnative Weed Control Act is 
an important step to ensure we are diligent in stopping the spread of 
these weeds. If we work together at all levels of government and 
throughout our communities, we can protect our land, livelihood, and 
environment.
    Thank you, Mr. Chairman, for the opportunity to testify today, and 
as I said before, I look forward to working with you to pass this 
legislation into law.
                                 ______
                                 
    Mr. Hefley. Larry, thank you and you have really been the 
leader in this. We thank you for your diligence, your 
leadership, the way you have tenaciously stayed after this 
issue. It is a serious issue. We know it in the West but it is 
also a serious issue in the East, as well, and I think we are 
on to the right approach. I appreciate your efforts and 
appreciate your being here this morning.
    Mrs. Christensen?
    Mrs. Christensen. I do not have any questions of the 
Senator.
    Mr. Hefley. Any questions for the Senator?
    Mr. Souder. Senator, I am from the Midwest, Indiana, where 
we have very few public lands, and yet every spring when we 
watch the television news it seems like there is a war going on 
because it seems like there are 20 different kinds of weed 
killers every commercial break, trying to get it for the 
farmers and their soybeans and corn and other types of things.
    For those who are using public land for ranching or for 
other agricultural reasons; are they allowed to do any 
attacking of the weeds themselves and are they participants in 
the program?
    Senator Craig. In many instances, they are not. The reason 
they are not is we have largely had a ban on the use of 
herbicides on public lands for the last good number of years, 
some for justifiable reasons because of the residual effect, 
others largely with no basis. It had just become the policy of 
the Forest Service and the BLM. A lot of experiments have been 
tried. There are biological efforts underway now that are 
working in some instances that we ought to incorporate, along 
with now some certified and licensed herbicides that can be 
effectively used, but the program really broke down over the 
last 20 years.
    There was a period of time when I would suggest that almost 
every Federal land management agency had no program, and weeds 
were allowed, literally, to run rampant. When you have these 
adjacent private lands or State lands, they become instantly 
infected. We have seen massive spread of weeds, literally, tens 
of thousands of acres of public land in Idaho are now dominated 
by non-native weed species today, that have turned those lands 
into totally nonproductive areas for any purpose, including 
wildlife or environmental reasons.
    Mr. Souder. Thank you.
    Mr. Hefley. Yes?
    Mr. Otter. Thank you very much, Mr. Chairman, and thank you 
for your leadership on this issue. Larry, in Idaho, we 
obviously have the Department of the Interior and the 
Department of Agriculture with the Forest Service, but I am 
also aware that we have got a lot of other departments, like 
the Department of Energy, the Department of Defense, the Corps 
of Engineers, the EPA and U.S. Fish and Wildlife that all have 
management responsibilities over some public lands or some 
element of the public lands. Are we addressing those folks, as 
well? So, the entire 35 million acres in Idaho, of Federal 
land, the noxious weed problem, is going to come under control 
of the Secretary of Interior; is that right?
    Senator Craig. Well, in cooperation with the Department of 
Agriculture in Idaho. The strategic plan, Congressman Otter, 
that Idaho created over the last several years, and you were 
there as Lieutenant Governor and there is a former Speaker of 
the House who deserve credit for this, really looks at a 
targeted area and says who are the landlords? They all become 
involved. It is not just for the Forest Service and BLM. They 
are the dominant landowners in Idaho, but you are right. We 
have other large Federal establishments, like the INEEL, DOE, 
U.S. Fish and Wildlife Service, and all of those--all of those 
become a part of the total plan, as you break out and devise 
these strategic areas.
    Then, through a collaborative effort, you coordinate the 
resources. You identify the problems--in this case, the weeds--
and you begin to coordinate the resources to bring that 
together. That way, you can develop a variety of things, and we 
offer flexibility within the law to develop cost sharings, all 
of those types of things. Maybe DOE does not have a division 
within them that can actually go out and control the weeds 
through whatever method. They could partnership with Bonneville 
County, and the county weed control authority would then gain 
access to, under a devised plan, the properties of DOE for the 
purposes of weed management. Those boundaries get broken down 
through this legislation by the development of the strategic 
plan or some cooperative mechanism in a collaborative way, if 
other States have other mechanisms that seemed to be working.
    Mr. Otter. All other lands in Idaho, Senator, as you well 
know and I have experienced myself, are under the county. The 
county, if they notice a noxious weed population on my 
property, they come in and spray it, then they put a lien 
against my property until I pay the bill. It is like a tax 
lien. My question would be is this going to authorize the State 
to do that? Is this going to authorize the counties to demand 
some action against noxious weeds on Federal land?
    Senator Craig. It does not, not in that authority, because 
the State does not, nor does the county, have that authority at 
this time. My guess is we are not going to get a Congress to 
grant that authority to State or local governments over the 
Federal Government. What I am hoping, and what is working now 
in Idaho, is the idea of bringing them all together. We have 
progressed a long way in the last decade as to understanding 
the problem, and most importantly, how you apply the chemical 
or the biologic agent, and/or in some instances, I would 
suggest that in certain areas, the business of raising goats 
will become a profitable business. We literately have goat 
herding going on now in these large weed areas, that goats can 
consume and control weeds, because of their particular 
appetites. I have been out watching them and found it very 
interesting. We have Navajo tribespeople up in Idaho with their 
goat herds on some experimental plots down in Bennett County, 
and we are getting some results on Knapweed and Leafy Spurge.
    Mr. Otter. Thank you, Mr. Chairman. Thank you, Senator.
    Mr. Hefley. The other gentlemen from Idaho?
    Mr. Simpson. Mr. Chairman, I do not have a question. I just 
wanted to thank Senator Craig for his leadership on this issue. 
In Idaho, he is known as the Weed Eater. He has been very 
active and really has been the leader in this area. It is a 
very severe problem in Idaho. Just to demonstrate, one of the 
problems is that last year, when forest fires ravaged something 
like 1.2 million acres in Idaho, I spent a couple days up there 
toward the end of--I guess they burned for 3 months or 4 months 
or something like that--one of the forest rangers had come back 
from on of the areas where the fire had started and it cooled 
down and stuff. He had been out there examining it, and he 
said, ``There is good news and there is bad news.'' I said, 
``What is that?'' He said, ``Well, it is cool there now and it 
is starting to green up.'' I said, ``That's good.'' He said, 
``Yes, the bad news is it is weeds, and they come back faster 
than the native species in those areas.''
    We have a real problem when we have forest fires in those 
areas, trying to control the weeds, particularly if they are in 
wilderness areas and so forth. So we have got a problem, not 
only on the public lands we all have access to, but getting 
weeds controlled in the wilderness areas is becoming more and 
more of a problem than it has in the past, but I thank the 
Senator for his leadership on this.
    Senator Craig. Well, the congressman makes an extremely 
valuable point. Last year in our country we lost more acres to 
wildfire, both forested and non-forested acres, than ever in 
our history, I believe nearly 6 million. In most instances, 
weeds will replace the native species that were on those acres. 
Now, sometimes native species come back and ultimately, if they 
are the dominant species, they will knock out the weeds, but 
some of the weeds we now have become the dominant species and 
you totally change the landscape and the ecosystems of those 
fire areas.
    It is absolutely true in our State of Idaho--we lost one 
million acres last year or more. We could well do that again 
this year. As you know, there is a fire burning out of control 
in California as we speak, right on the breaks between 
California and Nevada. That land ought to be covered with snow 
still today, but because of the drought in the Great Basin 
Region of the West, we are going to lose millions of acres 
again to fire this year probably. We will hope not.
    The tragedy is exactly what the Congressman has just said. 
The weeds beat the native species back and they become the 
dominant species in those fire zones, and that is something 
that we have really not controlled very well. In some 
instances, in timbered areas, they are so dominant, they will 
actually choke out the recovery of trees.
    Mr. Hefley. Thank you, Senator, for coming over. You are so 
convincing that there is not a raft of questions. I am sure, 
with your testimony, this will move very well. We appreciate 
you being here.
    Senator Craig. Well, Joel, it is good to see you again and 
thank you all very much for your time.
    Mr. Hefley. Mr. Kildee?
    Mr. Kildee. I just briefly wanted to welcome Larry back 
over here. He and I have worked together on many issues before 
and I look forward to working together with you on this issue.
    Senator Craig. Dale, thank you. It is good to see you.
    Mr. Hefley. Thank you very much. The second panel will be 
composed of Dr. Jim Tate, Science Advisor to Secretary of 
Interior; and Michael Raines, Deputy Chief, State and Private 
Forestry, U.S. Forest Service, Department of Agriculture. Dr. 
Tate will be accompanied by Gina Ramos, Senior Weed Specialist, 
Bureau of Land Management; Gary Johnston, Invasive Species 
Specialist, National Park Service and Michael Ielmini, Refuge 
Program Specialist, the Fish and Wildlife Service.
    Dr. Tate, we would ask that you, if you would, keep your 
testimony to around 5 minutes. You will see the little lights 
there in front of you. Then we will have an opportunity for 
questions.
    Dr. Tate?

  STATEMENT OF JIM TATE, SCIENCE ADVISOR TO THE SECRETARY OF 
  INTERIOR, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Tate. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today. I am Jim Tate, Science Advisor to Interior Secretary 
Gail Norton, and on behalf of the Secretary, we want to thank 
you for bringing attention to this very important problem. As 
you stated, this is one that is costing our Nation more than 
$20 billion per year. In addition, we have looked at the study 
by David Pimatell, et al; and he looks at invasive species 
costs in general, not just the plants, and comes up with a 
figure of $130.2 billion per year, introduced weeds in 
agriculture being $13 billion. With your permission, I would 
like to share this chart that Dr. Pimatell has provided.
    Mr. Hefley. Without objection.
    Mr. Tate. Thank you. Three bureaus in our Department of 
Interior are most affected by H.R. 1462; the National Park 
Service, the U.S. Fish and Wildlife Service and the Bureau of 
Land Management. At your invitation, that is why I am 
accompanied today by Gina Ramos, Mike Ielmini, and Gary 
Johnston. Secretary Norton has stated, very early in the time 
she has been here, her support for the concept of Federal 
agencies as partners in developing coordinated efforts to 
manage invasive species. She wants to be inclusive; States, 
tribes, private landowners.
    Foremost among our efforts is the National Invasive Species 
Council, co-chaired by Interior, Agriculture, Commerce. The 
council provides Federal coordination in invasive species 
issues and encourages partnership efforts to control invasive 
species. The council, we think, can also help to ensure a 
coordinated Federal, State, tribal approach. In the next couple 
of minutes, I want to leave you with one message above all 
others. We are eager to work with you on any of the issues that 
are before you today.
    I would like to just summarize very quickly selected 
portions of the written testimony. We note that some States, 
especially in the West, have existing infrastructures that are 
likely under your bill to qualify as weed management entities, 
but other States have not yet established such infrastructure. 
Since invasive species cross State boundaries and there are 
many existing regional weed management programs, we recommend a 
multistate inclusion--those efforts that are multistate to be 
included. We encourage you to consider extending the bill to 
include other kinds of weeds, namely the submerged and floating 
aquatic weeds and animal pests, weeds in their assets.
    We recommend the bill allow for funding that maximizes the 
flexibility to States, tribes, and local entities. We want to 
bring your attention today to some of the ongoing, highly 
successful partnership efforts, the prime example is the 
Pulling Together initiative. Pulling Together is a partnership 
between Federal agencies and the National Fish and Wildlife 
Foundation. Since 1997, through cost-sharing efforts, the 
partners have supported more than 175 weed management projects 
in 32 States and one territory. Each project in Pulling 
Together requires a one-to-one match of non-Federal funds. To 
date, $5 million in Federal dollars have been matched with 
almost $10 million in non-Federal dollars under this program. 
We recommend that language be included in the bill to clarify 
how this legislation would relate to existing Federal 
initiatives, like Pulling Together.
    On another note, we note that the bill creates a new 
advisory Committee within the department to oversee the 
allocation of funds to States and tribes. We believe that this 
need is already covered through the Invasive Species Advisory 
Committee, which already exists to provide advice to the 
National Invasive Species Council, in accordance with Executive 
Order 13112. It is administered by the Department of Interior. 
We recommend the existing advisory Committee be used to make 
recommendations to the secretaries for the allocations of funds 
to States and tribes, rather than establishing a new advisory 
Committee.
    We recommend H.R. 1462 include an authorization of 
appropriations section to help these funds, specifically now, 
the National Park Service, Fish and Wildlife, and BLM. The Park 
Service's Five-year Natural Resource Challenge Program 
identified non-native species as a significant component of the 
threat to our heritage on national park units. That is 80 
million acres of U.S. land under Park Service control. They 
have established a new management strategy--teams, called 
Exotic Plant Management Teams. Four of these teams were fielded 
to identify, treat, control, restore and monitor park areas 
that were invested with exotic plants.
    The four teams that exist serve 38 regionally grouped 
parks, not 41, as in our testimony. I am sorry. The success of 
these derives from their ability to adapt to local conditions, 
something is different in Florida than it is in the D.C. area 
and so forth. The President's budget for Fiscal Year 2002 
includes a funding request for six more of these teams. This 
will raise the Park Service's capacity to control invasive 
plants at 152 parks or 40 percent of our parks in the lower 48.
    The Park Service has specifically asked if we could 
consider a definitions section of terms used in the bill, just 
for consistency's sake among the various terms used by the 
various agencies already working with these things.
    Moving on to the Fish and Wildlife Service, over 6 million 
acres of National Wildlife Refuge System are infested with 
exotic plants alone. So, there are critical wildlife management 
objectives on over 50 percent of all of our refuges. The refuge 
system is identified over 300 projects and an estimated cost of 
$120 million just for invasive species. The refuge system 
already works with private landowners to help restore degraded 
fish and wildlife habitats on properties adjacent to and within 
our refuges. In the case of the Fish and Wildlife Service, it 
is especially important that terrestrial plants and non-native 
animals be considered as a part of the weed problem that we 
have. I draw your attention especially to the nutria issue that 
is discussed in our testimony.
    Finally, the BLM has been working with States, other 
Federal agencies and tribes, especially with private landowners 
and industries. They have numerous ongoing programs. For 
example, today the BLM in New Mexico will be taking part in the 
signing of a memorandum of understanding with tribes, State and 
Federal agencies to manage invasive and noxious weeds in that 
State.
    The Department of Interior considers public education a key 
to winning the war on weeds. BLM's Partners Against Weeds 
strategy focuses on education and outreach. We note that the 
bill encourages weed management entities solely for education. 
We believe education is an important part of the invasive 
species program and one that is covered at the Department of 
Interior and in the council. Using the existing authorization 
would release other dollars to reach management entities 
outside of the Federal Government. BLM manages over 264 million 
acres of public lands, and their cooperative weed management 
program has been established in those areas.
    One item not mentioned in our testimony is we support the 
comment of the USDA, that documentation and monitoring should 
be addressed, both within and outside of NEPA compliance. Thank 
you for the opportunity to appear before you today. We 
certainly applaud the bill's recognition of partnership as keys 
to success, and this concludes my prepared remarks and I am 
happy to answer any questions.
    [The prepared statement of Dr. Tate follows:]

 Statement of Dr. James Tate, Jr., Science Advisor, U.S. Department of 
                       the Interior, on H.R. 1462

    Mr. Chairman, my name is Jim Tate, and I am the Science Advisor at 
the Department of the Interior. I am accompanied today by Gina Ramos, 
Senior Weed Specialist, Bureau of Land Management; Michael Lelmini, 
Refuge Program Specialist, U.S. Fish and Wildlife Service; and Gary 
Johnston, Invasive Species Specialist, National Park Service. I thank 
you for the opportunity to appear before your Committee to present the 
views of the Department of the Interior on H.R. 1462, the Harmful 
Nonnative Weed Control Act of 2001.
    The Department commends Congress for bringing attention to this 
important issue that has significant impacts on both public and private 
landowners and managers across the country. Invasive plant species are 
estimated to cause more than $20 billion per year in economic damage 
and affect millions of acres of private and public lands. We concur 
with the basic principles embodied in the legislation; specifically, 
the recognition that a concerted and coordinated effort by the public 
and private sectors with requisite accountability is critical to the 
successful prevention, control, and management of invasive species. 
However, we need to identify more clearly the possible costs of this 
proposal and how it would be funded within the context of a balanced 
budget. We view this legislation as an important step toward greater 
engagement between Federal and non-Federal partners to counter the 
harmful impacts of invasive species.
    The Department has identified three primary areas of concern with 
H.R. 1462 where textual changes could clarify the intent of the bill. I 
will outline these areas of concern briefly in this statement. This 
statement also addresses certain concerns that are specific to the 
three bureaus affected by H.R. 1462, the National Park Service, the 
U.S. Fish and Wildlife Service, and the Bureau of Land Management. In 
addition, we are advised by the Department of Justice that language 
contained in Section 9(a) of the bill requiring the consent of property 
owners may be problematic as it pertains to weed management activities 
on Indian lands, especially when such lands are held in trust for 
multiple beneficiaries, thereby making the process of obtaining consent 
extremely burdensome. We are eager to work with the Committee to 
develop amendatory language to address these concerns. We also hope the 
bill will include Federal agencies as partners in developing these 
coordinated efforts to manage invasive species. The National Invasive 
Species Council, which is co-chaired by the Departments of the 
Interior, Commerce and Agriculture, provides Federal coordination on 
invasive species issues, including invasive plants, and encourages 
partnership efforts to prevent and control invasive species. The 
Council can provide assistance with efforts to ensure a coordinated 
Federal/State approach. Finally, this statement will also touch upon 
the bureaus' programs in the areas of invasive species prevention, 
management, and eradication.
    The first area of concern is the scope of the bill: what is covered 
by and excluded from the bill, both in terms of geography and the types 
of activities that are eligible for funding. Although the bill 
technically applies to the entire nation, we think it would be 
difficult for most of the eastern and southeastern states to compete 
with western states that have existing infrastructures that are likely 
to qualify as ``weed management entities.'' Also, since invasive 
species cross state boundaries and there are many existing regional 
weed management programs, the exclusion of multi-state efforts in the 
bill could eliminate flexibility and hamper comprehensive control and 
management programs.
    In addition to our concerns about the bill's scope, its prohibition 
on funding for control of submerged or floating aquatic noxious weeds 
and animal pests, operates against efforts to initiate a comprehensive 
approach to this growing threat. This prohibition could have a 
dampening effect on key coastal states with substantial aquatic 
invasive species, discouraging them from participating in the program. 
Feral pigs in Hawaii provide an example of an excluded animal pest. The 
National Park Service wanted to remove invasive plant species in 
national parks in Hawaii, but the pigs were serving as a mechanism for 
distributing the seeds of some of the invasive plants and disturbing 
the soil. Without removal of the pigs, any program to remove invasive 
plant species would fail. We recommend that the bill allow for funding 
that maximizes flexibility to the States, Tribes, and local entities to 
control invasive species.
    There are many ongoing, highly successful partnership efforts 
between the public and private sectors to control invasive species. One 
example is the ``Pulling Together Initiative,'' a partnership between 
Federal agencies and the National Fish and Wildlife Foundation. Since 
1997, through cost-sharing efforts, the partners have supported more 
than 175 weed management projects in 33 states and one territory. The 
purpose of the ``Pulling Together Initiative'' is to encourage the 
development of weed management areas, similar to the intent of this 
legislation. These projects bring together many stakeholders--Federal, 
State, Tribal, private, and non-governmental organizations--to 
coordinate management of weeds based on an integrated pest management 
approach. Each project funded through ``Pulling Together'' must have a 
minimum 1 to 1 match of non-Federal funds or in-kind contributions for 
every dollar of Federal funds requested. As a result, $5 million in 
Federal dollars have been matched with almost $10 million in non-
Federal contributions. We recommend that language be included in this 
bill that would clarify how this legislation would relate to existing 
Federal initiatives so that significant, well-established, Federal-
private partnership efforts will continue and flourish.
    The second area of concern relates to the process established by 
the legislation and whether it provides for sufficient accountability, 
consultation, and coordination with Federal efforts and quality 
assurances. The bill creates a new advisory committee within the 
Department to oversee the allocation of funds to States and Tribes. 
Currently, the Invasive Species Advisory Committee already exists to 
provide advice to the National Invasive Species Council in accordance 
with Executive Order 13112, and is administered by the Department of 
the Interior. The Committee consists of members with similar expertise 
and representing many of the same interests in invasive species that 
are called for in H.R. 1462. We recommend that the existing advisory 
committee be used to make recommendations to the Secretary for the 
allocation of funds to States and Tribes, rather than establishing a 
new advisory committee.
    While there is a reporting requirement for local weed management 
entities in H.R. 1462, the scope of the reporting requirement is 
unclear, as is how the results relate to the selection and renewal 
process. There is little specific guidance in the bill on how funds 
would be allocated to States and Tribes, or how they, in turn, are to 
allocate the funds to weed management entities. In addition, it is 
unclear whether these funds can be allocated to Federal agencies for 
coordination activities at the State and local levels. We recommend 
that language be added to the bill that establishes requirements for a 
standard reporting and review system that would ensure accountability 
and improve coordination and information exchange among Federal 
agencies, States and Tribes. We also recommend the bill be amended to 
specify which State agencies have the responsibility for allocating 
funds to weed management entities so it is consistent from state to 
state.
    Except for the allocation of funds by the Secretary to States and 
Tribes, H.R. 1462 contains no requirement for consultation or 
coordination with Federal agencies. Given that invasive species cover 
Federal as well as State, Tribal, and private lands, we recommend that 
language be included that would require weed management entities to 
coordinate and consult with Federal agencies to promote comprehensive 
invasive species programs across all affected lands. This targeting, 
based upon existing capacity and resources, will help concentrate 
efforts to make a significant improvement in overall land health.
    Our third area of concern surrounds the budgetary implications of 
the legislation and whether funding for this legislation would come at 
the expense of Federal control efforts and existing programs that 
provide matching funds for weed control. This program could involve 
significant new funding obligations that are not now assumed in the 
President's Budget. It is unclear how much funding is needed or how it 
will be paid for. Because this bill does not include an authorization 
of appropriations section that would provide a separate authorization 
of funds, we are concerned that there would be no authorization limit 
on funds or any assurance that this program would not impact existing 
agency and multi-agency programs (such as the ``Pulling Together 
Initiative'') that support local and regional weed prevention and 
control projects.
    Finally, as our experiences have shown, having a matching funds 
requirement is critical to the success of these projects because it 
ensures that the Federal funds available are used for projects that 
have strong support and financial backing at the regional, State or 
local levels. We are concerned that H.R. 1462 might undermine that 
success by allowing the Governor of any State to change the percentage 
of the match required. Additionally, except in the case of Tribes, we 
are also concerned about allowing States to count Federal funds from 
other sources outside this legislation as a weed management entity's 
non-Federal match. It is important for Federal funds to be used to 
leverage non-Federal funds to maximize the impact of Federal monies 
available for invasive species control programs.
    The following are bureau-specific comments concerning H.R. 1462 and 
the bureaus' ongoing programs:

National Park Service
    The principles of coordination, targeted funding, and 
accountability are fundamental aspects of the nonnative invasive 
species management strategy pursued under the National Park Service's 
five-year Natural Resource Challenge program. In Fiscal Year 2000, the 
National Park Service (NPS) identified nonnative invasive species as a 
significant component of the threat to the natural and cultural 
heritage preserved in national park units across the country covering 
over 80 million acres of land.
    As part of the Natural Resource Challenge, a new management 
strategy for controlling harmful nonnative invasive plants was 
implemented, called the Exotic Plant Management Team (EPMT). Four teams 
were fielded to identify, treat, control, restore, and monitor areas of 
parks that were infested with harmful exotic plants. The four teams 
serve 41 parks, comprising 11% of national park units, in the 
Chihuahuan Desert-Shortgrass Prairie, Florida, Hawaii, and the National 
Capital Region. The success of each EPMT derives from its ability to 
adapt to local conditions and needs. Each team sets work priorities 
based on a number of factors including: severity of threat to high-
quality natural areas and rare species; extent of targeted infestation; 
probability of successful control and potential for restoration; and 
opportunities for public involvement. In addition, the President's 
budget for Fiscal Year 2002 includes a funding request for six 
additional EPMTs. Funding of these teams will raise our capacity to 
control invasive plants at 152 parks or approximately 40% of the parks 
in the lower forty-eight states. The NPS hopes that H.R.1462 will 
improve the team's work in our park units by increasing collaborative 
efforts between public and private adjacent landowners.
    The EPMT of Florida provides an excellent illustration of the 
effectiveness of local partnerships. The Florida EPMT formed a 
partnership with the Upland Invasive Plant Management Program of the 
Florida Department of Environmental Protection and approximately 136 
other groups in the program to control invasive plants. Together they 
fund removal of exotic species in 11 units of the National Park System 
in Florida with the State of Florida matching the NPS contribution 
dollar for dollar.
    The NPS has many successful public and private partners in its 
efforts to control and manage invasive species, including tribal 
governments. The NPS recommends that H.R. 1462 clearly state that 
Tribal governments are to be included in all definitions of local 
stakeholders and weed management entities, and that they should be 
included in all sections of the bill relating to coordinated actions 
and distribution of financial assistance. Tribes should also be able to 
participate outside their own reservations when they belong to a larger 
weed management entity, without their funding being restricted. The NPS 
recognizes that effective management of invasive plants must be 
conducted on a coordinated basis involving all stakeholders. However, 
the authority for Interior agencies, including NPS, to work with 
cooperating land managers outside the Interior agencies' boundaries is 
not clear. We recommend that language be included in H.R. 1462 that 
would provide the Federal agencies greater flexibility in managing 
invasive plants in concert with willing adjoining landowners where 
Federal lands are threatened by invasions from adjoining lands.
    The NPS is concerned about the lack of definitions for many of the 
terms used in the bill. Without terms being clearly defined, their use 
in the legislation may lead to confusion or disagreements over 
terminology. We note also that the bill as currently drafted permits 
the establishment of a weed management entity solely for the purpose of 
education. We believe that education, while an important part of any 
weed management entity's role, should not be it's only objective. 
Moreover, the NPS believes that substantial gains can be made through 
an education campaign at the national level so that individuals can 
learn about what efforts they can undertake to address this problem. We 
look forward to working with the Committee to address these and other 
issues.

U.S. Fish and Wildlife Service
    Invasive species are one of the leading threats to fish and 
wildlife, with potential to degrade entire ecosystems. The Fish and 
Wildlife Service (Service) is working to develop and implement 
aggressive programs to enhance its capability and leadership to respond 
effectively to present and future invasive species problems. The 
Service works in cooperation with private groups, State agencies, other 
Federal agencies, and other countries to combat invasive plant and 
animal species. National Wildlife Refuges (NWR) from Alaska to the 
Caribbean are affected by this problem. Based on national interagency 
estimates, over 6 million acres of the National Wildlife Refuge System 
are infested with exotic plants alone, interfering with crucial 
wildlife management objectives on over 50% of all refuges. Refuge field 
managers have identified invasive species problems as one of the most 
serious threats affecting the Refuge System. Nationwide, the rate of 
spread of invasive plants is estimated to be 5,400 acres per year. The 
Refuge System has identified over 300 projects with an estimated cost 
of $120 million to combat invasive species.
    Among the most insidious plant invaders to fish and wildlife 
resources are salt cedar, leafy spurge, whitetop, exotic thistles, 
Brazilian pepper, purple loosestrife, Australian pine, Chinese tallow 
trees, old world climbing fern, and melaleuca. At Loxahatchee Refuge in 
Florida's Everglades, for example, the exotic melaleuca tree and the 
Old World climbing fern have infested thousands of acres of the refuge, 
out-competing native vegetation and effectively eliminating wildlife-
dependent habitat. Sevilleta and Bosque del Apache NWRs in New Mexico 
continually invest large amounts of time and operational funds in 
eradication efforts on the salt cedar. Salt cedar disrupts the 
structure and stability of native plant communities, crowding out 
native plant species, altering existing water regimes, and increasing 
soil salinity.
    In addition, the Refuge System works with private landowners to 
help them restore degraded fish and wildlife habitats on their 
property, which includes the control of invasive plants. Through the 
Partners for Fish and Wildlife Program, which provides financial and 
technical assistance, the Service helps landowners benefit from 
improved productivity of their lands by minimizing the spread of 
invasive species and improving habitat for a variety of fish and 
wildlife species. Activities included prescribed burning, integrated 
pest management techniques, physical removal, fence construction, and 
restoration of native plant communities.
    Unfortunately, the invasive species negatively affecting fish and 
wildlife resources are not solely contained within terrestrial plant 
taxa. Many refuges have significant wetland components, making aquatic 
invasive species, such as phragmites, a serious threat to these 
ecosystems. Service programs support activities to prevent and control 
highly invasive plants and animal species such as zebra mussels, giant 
salvinia, Caulerpa taxifolia, Chinese mitten crabs, round gobies, 
Norway rats, Asian carp, nutria, Asian swamp eels, feral goats and 
pigs.
    Nutria are an exotic invasive rodent, native to South America, that 
have been introduced in 22 states nationwide, and affect over 1,000,000 
acres of the National Wildlife Refuge System. Among areas with high 
nutria populations is the lower Eastern Shore of Maryland, including 
Blackwater National Wildlife Refuge. Blackwater has lost over 7,000 
acres of marsh since 1933, and the rate of marsh loss has accelerated 
in recent years to approximately 200 acres per year. Although there are 
many contributing factors (e.g., sea level rise, land subsidence), 
nutria are a catalyst of marsh loss due to their habit of foraging on 
the below-ground portions of marsh plants. This activity compromises 
the integrity of the marsh root mat, facilitating erosion and leading 
to permanent marsh loss. In light of the damage caused by nutria, the 
Service and 22 other Federal, State, and private partners joined forces 
in 1997 to identify appropriate methods for controlling nutria and 
restoring degraded marsh habitat. The Partnership prepared a 3-year 
pilot program proposal, which was subsequently approved by Congress, 
including authorization for the Secretary of the Interior to spend up 
to $2.9 million over 3 years beginning in Fiscal Year 2000 (Public Law 
105-322).
    The number of invasive species threats to fish and wildlife 
resources continues to increase dramatically. As noted earlier, we 
recommend that H.R. 1462 be amended to increase its scope of coverage 
to include not only invasive terrestrial plant species, but aquatic 
plants as well. We would also recommend that certain invasive animal 
species be included.

Bureau of Land Management
    The Bureau of Land Management (BLM) recognizes the need for 
expanding on-the-ground efforts at controlling noxious weeds. Since the 
completion of the BLM's ``Partners Agains'' <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfe8dadadbccff">[email&#160;protected]</a> Strategy Plan, the 
BLM has followed the plan's recommendation of expanding cooperative 
partnerships. We can attribute much of the BLM's success in managing 
invasive species through cooperative partnerships with Federal, State, 
and local government agencies, private landowners, and industries. As 
noted earlier, we have concerns about the need to expand the scope of 
H.R. 1462 to permit weed management efforts that cross state lines. The 
BLM has numerous ongoing cooperative management relationships in this 
area and amending the bill to permit cross-jurisdictional efforts would 
foster further development of these relationships.
    The BLM considers public education the key to winning the war on 
weeds. Accordingly, our Partners Against Weeds Strategy focuses on 
education and outreach. BLM personnel have given over 200 weed slide 
presentations, prepared videos, produced flyers and classroom projects, 
and conducted numerous public weed field trips. The BLM has also 
developed a Weed Awareness Course that is given to each BLM employee. 
In Grand Junction, Colorado, for example, the Field Office Weed 
Coordinator has held classes for public land users at which all of the 
major grazing permittees in that field office have attended. Ranchers 
are now reporting new weed infestations and cooperating to help control 
them on private and BLM lands.
    As the awareness of invasive plants and their impacts accelerates, 
our efforts with the public also increase. Today, for example, the BLM 
in New Mexico will be taking part in the signing of a Memorandum of 
Understanding with Tribes, and State and Federal agencies to manage 
invasive and noxious weeds.
    Recently, the creation of new Cooperative Weed Management Areas has 
risen significantly. Because the BLM manages over 264 million acres of 
public lands, cooperative weed management efforts are essential, 
primarily in those areas where public lands are intermingled with 
State, private, and other Federally-managed lands. Today more than 
ninety percent of the Federal, State and private lands in Idaho and 
California are part of cooperative weed management areas. For example, 
in Fiscal Year 2000 the BLM treated 291,000 acres and is involved in 
over 30 weed management areas. That figure is expected to rise 
annually.
    In Fiscal Year 2001, the BLM received $8.9 million for weed 
management, a majority of which went to the BLM offices for on-the-
ground weed efforts including inventory, weed treatments, and 
monitoring. In states with smaller amounts of infested acreage, the BLM 
focuses funding on efforts to provide states with the capability to 
detect small weed infestations in high-risk areas and to treat small 
infestations before they spread. The BLM is also dedicating funding to 
states with larger infestations, focusing efforts on areas not 
previously inventoried, but at risk. In addition, in Fiscal Year 2001, 
the BLM provided nearly $469,000 for the National Fish and Wildlife 
Foundation's Pulling Together Initiative for comprehensive, on-the-
ground weed management, treatment, prevention and control efforts. We 
are concerned that, as currently drafted, H.R. 1462 could impact BLM's 
future efforts to fund this successful, ongoing program.

Conclusion
    We appreciate the opportunity to appear before this Committee to 
discuss the issue of invasive species and we wish to thank you, Mr. 
Chairman, for your efforts to address this issue through your 
sponsorship of H.R. 1462. We welcome this legislation as a symbol of 
future commitment to early detection and rapid response to mitigate the 
rampant spread of invasive plants. We, too, have recognized the need to 
work directly with private landowners and State and local governments. 
We applaud the bill's recognition of partnerships as key to success 
across multiple jurisdictions of natural resource management. Our goal 
is to ensure that the main provisions of H.R. 1462 allow for the 
coordination of existing Federal efforts and local control programs so 
that the bill serves to strengthen ongoing invasive species programs 
and support new partnerships and initiatives. We look forward to 
working with the Committee in formulating legislation that best 
reflects our mutual goal of assisting States, Tribes, and local 
entities to prevent, control, and manage nonnative invasive species 
while recognizing and strengthening existing partnership efforts among 
all stakeholders.
    Mr. Chairman, this concludes my prepared remarks and I will be 
happy to answer any questions you or other committee members might 
have.
                                 ______
                                 

    [An attachment to Dr. Tate's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3181.001
    
    Mr. Hefley. Thank you very much.
    Mr. Rains?

  STATEMENT OF MICHAEL RAINS, DEPUTY CHIEF, STATE AND PRIVATE 
   FORESTRY, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Rains. Thank you, Mr. Chairman, members of the 
Subcommittee. My name is Michael Rains. I work for the Forest 
Service in the Department of Agriculture, and today I am 
accompanied by my partners here at the table, but also Dr. 
Deborah Hayes, a specialist in the subject matter. It has been 
said many times that non-native weeds pose an enormous economic 
threat, and the problem needs to be addressed in a very 
aggressive, systematic way. With the huge economic losses that 
we are faced with, it is a huge task, but I feel like we are up 
to it.
    Fundamentally, we support the premise of the proposed 
legislation, but we would like to work with you and your 
colleagues to ensure that your efforts augment the current fine 
work that is already under way. Let me talk a little bit about 
that current work. We believe in USDA that we are probably 
uniquely qualified to address the non-native weed problem. We 
have six agencies currently that are dealing with that aspect 
right now.
    For example, in the Forest Service, we have a wide range of 
existing authorities under way to help control non-native weeds 
on Federal, State and private lands. We have been doing that 
for the better part of 50 years. To answer the question of one 
of the congressmen on DOE and DOD lands, and Camp David lands, 
we also have the authority to deal with that. To be fair, our 
focus has been on insects and diseases in the past, and that is 
probably an issue of resources, but we do have the authority, 
and are focusing on, when we can, non-native weeds.
    For example, this year in the National Fire Plan--which 
many of you are aware of--you have helped support it to help 
deal with the impact on the environments and communities due to 
the fires of 2000, and what we fear may be the fires of 2001. 
This year we put almost $25 million specifically in the West to 
deal with the non-native weeds. It is a big influx of cash from 
where we were last year. In my view, the basic elixir for the 
success of the program continues to remain adequate resources, 
continued cooperation and a wide range of tools to combat the 
problem, including biocontrol.
    Our ARS agency in the Department of Agriculture is doing 
tremendous work along those lines of biocontrol. Let me talk 
about coordination. We have an existing National Invasive 
Species Council, as Dr. Tate has already mentioned, and we have 
various Committees and work groups under way. I think there is 
a strong foundation already in place to help ensure that 
coordination. We can always do better and with your guidance we 
will look for ways to do that.
    The spread of non-native weeds is a national problem. We 
need to ensure that any legislation and current work focuses on 
that issue. In other words, it is not a Western or an Eastern 
thing. It is a national problem. Like Mr. Craig says, non-
native weeds ignore boundaries. So, our work needs to be done 
on landscape-level issues or multistate issues. Clearly, if we 
begin to allocate funds, we can do that under existing 
authorities to State-by-State and actually sub-State issues. To 
me, existing authorities will help to deal with any solution 
that we might be able to address.
    Once again, I remind myself that the basic solution to the 
problem is adequate resources, continued cooperation, and 
adequate control methods. Let me talk a little bit about the 
fire plan as maybe a model. We are currently underway with the 
Department of Interior and every State across the country in 
addressing the wildfire impacts of 2000. A key tactical 
component of the fire plan is invasive species management, and 
with the Department of Interior and the Department of 
Agriculture, we will probably put in about $40 million this 
year, primarily in the West, to address that problem.
    A similar approach, with the existing tactics and command 
systems, if you will--if I can talk fire for a minute, could be 
used to address this problem--again, adequate resources, close 
coordination, a wide range of tactics, like we are doing with 
the fire plan. We might view the non-native weed problem as a 
fire issue. It is exactly like that. The solution to the 
problem is complicated and I cannot overstress the importance 
of good, sound science in helping us deal with the problem. 
Again, although I am probably bias, I think the Department of 
Agriculture has a good standing in there. But I will also give 
nod and very strong compliments to our partners in the 
Department of Interior.
    In summary, non-native weeds and other exotic pests 
threaten the health and sustainability of our productive lands, 
no question about it. We must address this problem in an 
aggressive way. Thank you for seeing the problem so clearly. 
Thank you for helping us solve it. The USDA is able and willing 
to help you and your colleagues meet this challenge. This 
concludes my remarks. Ms. Hayes and I will be happy to answer 
any questions that you might have. Thank you.
    [The prepared statement of Mr. Rains follows:]

    Statement of Michael T. Rains, Deputy Chief, State and Private 
   Forestry, Forest Service, United States Department of Agriculture

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am Michael Rains, Deputy. 
Chief, State and Private Forestry, USDA Forest Service. My comments 
today represent the views of the USDA on H.R. 1462, Harmful Nonnative 
Weed Control Act of 2001.
    First, I would like to thank the subcommittee for recognizing 
noxious weeds as a significant threat to our nation's ecosystem health. 
Non-native invasive plants alter ecosystem functions and reduce 
biological diversity by eliminating native plants, which in turn can 
lower the water table, increase soil erosion, runoff, and/or increase 
fire frequency and intensity. Non-native invasive plants also change 
the plant community used by domestic livestock, wildlife, and 
recreationists. These changes in the ecosystem often result in 
eliminating or restricting use of our wildlands and urban areas and 
increase the economic costs associated with these losses. We face a 
daunting challenge in managing non-native invasive plants, but the 
Department is committed to working with the Committee to identify 
solutions. USDA is in a strong position to address non-native invasive 
species because of the broad authorities supporting non-native species 
management: field operations for prevention, detection, control, 
monitoring and restoration; research and technology development; 
technical assistance to States, Tribes and private landowners; 
financial assistance including cooperative agreements and grants; and 
international collaboration.
    USDA supports the objectives of H.R. 1462 to address the problem of 
invasive non-native plants. The Department supports the premise of the 
bill, that controlling invasive plants should be solved at the local 
level with support provided by a multitude of partners. USDA has 
numerous programs and delivery systems already in place under existing 
statutory authorities to address non-native invasive species 
management. Within the Forest Service in particular, there is a full 
range of existing authorities to support an integrated program of 
research and development, technical assistance and management of 
invasive species on public and private lands. These programs focus on 
invasive insects such as the Asian longhorn beetle and Gypsy Moth, 
invasive pathogens such as Sudden Oak Death Disease, and non-native 
invasive plants, which are the focus of this bill.
    For reasons I will detail in my testimony, USDA strongly supports 
the concept of allocating more resources for controlling non-native 
invasive plants at the local level. However, H.R. 1462 raises a number 
of questions for USDA. The Department would like to engage the 
Committee in more detail regarding (1) process, accountability and 
federal involvement; (2) compatibility with existing authorities in 
USDA; (3) scope of the legislation; and (4) current partnership 
funding.
    The Department would like to work with the Committee to resolve 
some of the issues raised by this bill and move toward outcomes that 
will integrate the collaborative, mufti-agency planning that has begun 
over the past three years at all levels of government for invasive 
plants (and other non-native invasive species) management.

            PROCESS, ACCOUNTABILITY AND FEDERAL INVOLVEMENT

    Under H.R. 1462, roles and duties of the advisory committee should 
be identified to ensure duties arid responsibilities carried out by the 
Executive Branch are not being delegated to outside entities. States 
would also need authority from Federal agencies to manage weeds on 
Federal land, in particular National Forest System lands. USDA would 
like to work with the Committee to address these issues of concern, in 
particular management of Federal land. The Department believes these 
decisions should remain within the jurisdiction of Federal land 
managers.
    H.R. 1462 would set up a new program entirely within the U.S. 
Department of the Interior. Six USDA agencies have programs that help 
manage the invasive plant issue: USDA is highly interested in working 
with the Committee to identify areas where these programs can be 
enhanced by this bill, and to determine what existing USDA programs fit 
well with the Department of the Interior programs proposed in this bill 
to avoid any redundancy.
    USDA has some issues regarding implementation and coordination if a 
new program dealing with invasive species management is developed in 
the Department of the Interior. Under H.R. 1462, a new advisory 
committee would be created, exempt from the Federal Advisory Committee 
Act of 1972. The roles and duties of this committee are not clear, 
particularly in relationship to already existing advisory committees, 
such as the Invasive Species Advisory Committee that was created by 
Executive Order 13112. Members on the Invasive Species Advisory 
Committee were appointed by the National Invasive Species Council, 
which is an inter-Departmental Council, co-chaired by the Departments 
of Agriculture, Commerce, and the Interior. Also, there are a number of 
other diverse stakeholder committees that could be used as an advisory 
committee to provide peer review of submitted projects from ``weed 
management entities.'' One such program is the ``Pulling Together 
Initiative Steering Committee'' sponsored by the Federal Interagency 
Committee for Management of Noxious and Exotic Weeds (FICMNEW). The 
Pulling Together Partnership Initiative has been ongoing since 1996, 
and is a mufti-agency effort that provides federal matching grants 
through the National Fish and Wildlife Foundation for local and 
regional weed prevention and control projects. Federal agencies 
involved include the FS, BLM, FWS, Bureau of Reclamation, NPS, 
Department of Defense, and APHIS (Animal and Plant Health Inspection 
Service).
    USDA notes very little specific direction in the bill on how funds 
will be allocated to and by the States. The Department would like to 
work with the Committee to establish criteria in the bill to ensure 
that regional differences and needs are accounted for and that a 
balance of funding is achieved among regions and states.
    USDA recommends that a mechanism for State and local consultation 
and/or coordination with Federal partners be specified in the bill. 
Currently, the bill requires no consultation or coordination with 
Federal agencies other than allocation by the Secretary of the Interior 
of funds to the States based on input from an advisory committee 
established by H.R. 1462. Coordination and consultation is important 
between Federal and private landowners who work together to manage non-
native weeds that, grow across boundaries. An example of this 
coordinated effort is occurring on the Humboldt-Toiyabe NF where 
noxious weeds are confined to several thousand acres and are still 
considered to be in manageable patches. The State of Nevada is 
allocating available funds to this area based on the coordinated 
efforts by local entities and Federal managers to eradicate invasive 
weeds. The coordination and priority setting that is occurring between 
Federal, State, and private partners becomes more critical as State and 
Federal funds are allocated that impacted multi-jurisdictional 
boundaries. USDA would like to work with the Committee to identify 
language to address the issue of coordination and consultation with 
Federal agencies. Fostering a climate of cooperation and coordination 
with all concerned entities results in increased sharing of expertise, 
information, resources, experience, and applied action to improve the 
efficiency and effectiveness of any invasive weed management program.

            COMPATIBILITY WITH EXISTING AUTHORITIES IN USDA

    Currently, within USDA there are six agencies that have a 
leadership role in dealing with the introduction and spread of invasive 
species and involved in research, regulation, operations, partnerships, 
technical and financial assistance, and education: APHIS is the front 
line of prevention, dealing with detecting and mitigating 
disseminations, and providing, control of new introductions. The USDA 
research agencies, Agricultural Research Service, Cooperative State 
Research, Education; and Extension Service and Forest Service; provide 
information on the: basic ecology of invasive 'species; as well as 
detection, monitoring and control methodologies and' technologies. The 
Forest Service responsibilities include Research and Development, State 
and Private Forestry, and, the National Forest System. In addition it 
has the lead for research in natural areas. The Forest Service has a 
broad range of authorities to address the invasive species issue and to 
coordinate with other Federal agencies with corresponding 
responsibilities.
    Forest Service, Natural Resources Conservation Service, APHIS and 
Farm Services Administration provide technical and financial 
assistance, consultation, and technology transfer prevention, control 
of invasive species, and landscape restoration following an invasion or 
disaster. The invasive species programs in these agencies run both 
independently and collaboratively. FICMNEW is a prime example of a 
collaborative government effort affecting land management. FICMNEW was 
established under a Memorandum Of Understanding signed by 17 Federal 
Agencies in 1994, with the charge of enhancing Federal coordination for 
the management of weeds. Member agencies seek to improve the Federal 
government's ability to prevent, control, and manage harmful non-
indigenous plant species, maintain and restore healthy ecosystems, and 
preserve biological diversity on Native American and Federal lands and 
waters, with assistance on private lands and waters. Federal agencies 
work cooperatively to achieve this through advancement of knowledge and 
skills, good land stewardship practices, public awareness of noxious 
weed issues and management, and collaborative projects. We will work 
with the Committee to ensure that H.R. 1462 does not conflict, and 
where possible enhances, existing USDA programs.

                        SCOPE OF THE LEGISLATION

    FICMNEW stated in a 1998 report that invasive plants (called non-
native weeds in the bill) cause more than $20 billion per year in 
economic damage and affect millions of acres of all types of private 
and public lands across the United States. H.R. 1462 provides a 
framework for States and local governments to work with local weed 
groups to control and eradicate invasive plants.. However, the 
Department is concerned how balance will be maintained between 
different regions of the U.S. or how multiple state efforts will be 
supported.
    Under the bill's framework it may be difficult for the Southeast 
and eastern States to compete with Western states that .have an 
existing infrastructure likely to qualify as ``weed management 
entities.'' There currently exist well over 100 weed management areas 
that have been organized at the local level by various partners in the 
west. These organizations are virtually non-existent in the eastern 
States. USDA would like to work with the Committee to identify 
potential alternative structures, which partner with the Natural 
Resource Conservation Service, such as conservation districts, which 
could serve as ``weed management entities.''
    The Department would like to work with the Committee to ensure that 
the bill adequately addresses multiple state efforts. Partnerships with 
States (especially those adjoining other States), other Federal 
agencies, and local groups are important since plants grow across 
jurisdictional areas. Projects can be split at the State line and 
funded separately while being coordinated across State lines, but 
additional constraints are sometimes imposed when this occurs. The 
recent fires in Idaho and Montana for example, demonstrate how natural 
forces do, not heed political boundaries. As a result of the 2000 fire 
season, in the states of Idaho and Montana, the Forest Service has 
spent approximately $24.5 million in treating invasive plants on 
National Forest System lands and private lands (4.2 million in NFS 
noxious weeds funding, 17.0 million from the National Fire Plan 
Restoration program, and 3.5 million from State and Private Forestry 
funds). Many of these invasive species treatments are directly 
attributable to interstate coordination.
    The Department also believes that the bill language should clarify 
to indicate that the purpose of funding for weed management entities 
through this bill is, at least in part, for environmental restoration 
purposes as much as it may be for economic purposes.

                      CURRENT PARTNERSHIP FUNDING

    Invasive weeds have been coming into this country for over a 
century, and they are well established in many areas. New species 
continue to be encountered at our national border and at individual 
State's borders. USDA along with agencies in the Department of the 
Interior has been working with State and local entities for many years 
on various partnerships to eradicate this problem. Funds have been 
allocated through these partnerships and the Department continues to 
participate in them. H.R. 1462 does not identify funding sources for 
the States allocation, the incentive payment program, or how this 
program will relate to projects already funded in USDA. This program 
could involve significant new funding obligations that are not now 
assumed in the President's Budget. It is unclear how much funding is 
needed or how it will be paid for. Because the bill does not include an 
authorization of appropriations section that would provide a separate 
authorization of funds, we are concerned that there would be no 
authorization limit on funds or any assurance that this program would 
not impact existing agency and multi-agency programs that support local 
and regional weed prevention and control projects. The Department would 
like to work with the Committee to ensure currently funded programs are 
continued and adequate funding provided.
    The bill's impact on current partnerships for local action, such 
as, the mufti-agency ``Pulling Together Initiative'' (PTI) mentioned 
earlier is uncertain. In Fiscal Year 2001 the Forest Service 
contributed $300,000 to this program. In addition to FS support of the 
PTI program, the FS also directly supports local weed entities through 
its S&PF and NFS programs. Many projects are already underway with this 
initiative, which demonstrate some of our best examples of need, 
partnerships, integrated weed management, and monitoring.
    USDA has found that research and technology development is often 
critical to successful land management, including efforts with State 
and local partners. Similarly, restoration actions following weed 
treatments are often key to sustaining control and ecosystem health 
over the long-term. Options are needed for supporting applied field 
tests, technology development and restoration actions, which are 
essential components of an effective on-the-ground management strategy. 
The Department would like to work with the Committee to identify how 
``weed management entities'' can obtain flexibility to fund and conduct 
field tests, demonstrations and other applied research activities when 
these components are essential for success of management goals.
    Once weeds are brought under control or eradicated, it is important 
to consider what will come in behind them. USDA believes the bill 
should provide for and encourage the restoration of a treated area, 
thus lessening impacts of the treatment as well as improving the health 
of the site making it less vulnerable to reinfestation. Knowledge from 
research and development would help ``weed management entities'' in 
evaluating what tools and/or techniques can best be used in an area 
that needs treatment.
    In conclusion, non-native invasive species threaten forest and 
rangeland sustainability and ecosystem viability. Populations of 
invasive plants in the U.S. are expanding annually by 7 to 14%. 
Although there are points of concern related to this bill, both the 
Department and its Agencies believe this bill is a commendable effort 
to address invasive species management on public and private lands.
    The Department is committed to working cooperatively with the 
Committee and the bill sponsors toward solutions that will meet our 
mutual concerns and objectives.
    This concludes my testimony. I would be .happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Hefley. Thank you very much, both of you, and thank you 
for your suggestions. We would like to work with you 
specifically on suggestions on changes that you think need to 
be in the legislation to make it more effective.
    Would you both agree that the problem is so big and so 
pervasive that it is not something the Federal Government can 
do on its own, that we do need that local management and 
control, coordination, to help make this thing work?
    Mr. Rains. Absolutely, in the Forest Service, specifically 
in our State and Private Forestry mission area, everything we 
do is through somebody else, and typically that is the States. 
We have county weed councils, for example, in the West in 
almost every State where we work with them, but lack these 
entities in the East. And so every dollar that we invest, they 
will invest at least another dollar and typically overmatch 
that. There is no question about it. We can provide an niche 
or, perhaps, an elixir, if you will, to get going, but we need 
the State and county level involvement to make it a success.
    Mr. Tate. We would certainly agree with you. The problem is 
beyond the capabilities of any one of us in this room or any 
one of us out working the fields and working the crops. 
Integrated planning, the kind that I was doing at the Idaho 
Engineering Laboratory just a few months ago, before I took 
this job, is something that we are very interested in seeing, 
using all of the tools available to us in an integrated manner 
that controls the weeds. A brief example, Cheatgrass in the 
West is a cold season grass. It grows well during the cool 
season, especially in the spring. By the time summer comes, it 
has used up all the nutrients and goes senescent. It makes a 
tremendous fire potential. We have discovered in the West that 
we can toss the advantage back to our native warm season 
grasses by fertilizing at the right time of year. In Idaho, we 
have a natural fertilizer in the form of about 75 million 
gallons of potato-processing wastes available to us. That helps 
us to use this one tool to throw Cheatgrass back to the native 
plants, when combined with other integrated methodologies, it 
might be just what we need. Thank you.
    Mr. Hefley. What exactly do you see the council doing to 
address noxious weeds at the local level? Will the council 
action duplicate ongoing efforts? You said that you do not 
think we need a new council. Would you speak to that a little 
further?
    Mr. Tate. Could I ask one of you to--is one of you 
particularly interested in that?
    Mr. Simpson. Mr. Chairman, we believe the council would 
help. First of all, there is an existing council with an 
advisory Committee, established under the executive order, and 
we believe the membership of that existing advisory Committee, 
established under the executive order, represents many of the 
stakeholders and interest groups that have an interest in this 
area, and would, I think, serve as a good model for addressing 
some of the issues in the bill.
    Mr. Hefley. Does it include local--or could it include 
local participation, as well?
    Mr. Tate. No response.
    Mr. Rains. The answer is yes, we do have a wide range of 
participation at the national level, but it is important to 
know that that is guidance, and then what we have from that is 
a series of work Committees that then begins to quickly delve 
into regional and local issues. Of course, at the regional and 
local level, we have that grass-roots involvement. So, there is 
no question we could seek ways to tighten up, but perhaps one 
might view this as a duplication. We want to work with you 
carefully on that so you really focus your resources.
    Mr. Hefley. Thank you. You talk about aquatic weeds. Will 
they be addressed in the reauthorization of the National 
Invasive Species Act in 2002 or do they need to be included in 
this? It is certainly a problem and we want to deal with the 
problem as best we can.
    Mr. Tate. The Invasive Species Act dealt especially with 
ballast water and with marine species, and there is apparently 
some effort and some interest in including aquatic species 
there. Within the broader concept, though, our Fish and 
Wildlife Service's refuges, in particular, are subjected to 
large numbers of aquatic species, plants, that would fall under 
the concept of weeds and plants and would be especially 
important that they be included here, so that we do not stop 
when the jurisdictional wetlands start or something of the 
nature.
    Mr. Rains. Mr. Chairman, the Department of Agriculture 
really strongly supports that notion, as well.
    Mr. Hefley. Thank you. I think you mentioned, Mr. Rains, 
that the Department of Agriculture spends about $40 million a 
year on this. I wonder, from Interior, what are you spending on 
weeds at this point, and what do you anticipate would be spent 
under legislation such as this?
    Mr. Tate. I would let Ms. Ramos answer.
    Ms. Ramos. Well, at this time, the Bureau of Land 
Management spends $8.9 million per year on invasive and noxious 
weeds, and I would let the Fish and Wildlife Service and Park 
Service tell you what they spend.
    Mr. Tate. Our total Interior contribution is about $40 
million, that includes interesting species such as the Brown 
Tree Snake in Guam, and its cost as well.
    Mr. Rains. The fire plan allowed us a real opportunity to 
increase our expenditures. What I did say, that between the 
Department of Interior and the Forest Service, we are spending 
on the fire plan about $40 million. Prior to the fire plan, the 
Forest Service spent about $11 million, and maybe the 
Department of Agriculture spent about $15 million. Now with the 
additional $25 million on the fire plan, we have been able to 
augment that considerably.
    Mr. Hefley. What would you anticipate under this 
legislation that you would be requesting? Do you have any idea?
    Mr. Rains. We really do not know, but I can tell you, we 
are probably going to at least work with our Department to 
probably have a request, at least in discussions, about double 
our current funding.
    Mr. Hefley. What do you think the increase would be if you 
add aquatics to this, as well?
    Mr. Tate. Mike, do you--would you add Aquatics?
    Mr. Ielmini. Yes. Mr. Chairman, the aquatic problem, at 
least in the National Wildlife Refuge System, would probably at 
least double our needs and in the terrestrial plant arena, at 
least those that we have identified as priority projects, and 
right now we are talking about approximately 6 million acres 
affected in the Refuge System--terrestrial plants alone, if we 
identify that most of the refuges in the system have an aquatic 
component, i.e., a wetland component, and the impacts are 
rapidly increasing there, we could certainly say that that 
increase would probably double.
    Mr. Hefley. Do you have the dollar figures at all?
    Mr. Ielmini. Our current projects identified in the Refuge 
Operation Needs System, identifying all terrestrial and aquatic 
projects that are needed, amounts to approximately $140 
million, about a $1.1 million backlog of total operations, also 
a large percentage of our overall operations needs.
    Mr. Rains. In the Department of Agriculture, we are 
probably looking at a figure of around $100 million that would 
include the aquatic species.
    Mr. Hefley. Who is winning the battle with what you are 
doing now? The weeds that came from outer space, are they 
conquering humanity, or is humanity beginning to push them 
back?
    Mr. Tate. This problem is often referred to as a long fuse 
and a big boom. In some cases, Cheatgrass and Star Thistle and 
a few others, we are approaching the boom. The fuse is getting 
very short and it could, in fact, overwhelm our facilities. I 
am thinking how it already has in some cases. We keep referring 
to the fires and the relationships on rangelands caused by 
these things. We see in Florida, in some of the semitropical 
ecosystems, the same kinds of problems. We are very much at the 
big boom in the Southeast.
    Mr. Rains. I think from the Department of Agriculture's 
point of view, maybe overall we might be losing, but we have 
some real success stories, especially on National Forest System 
land, where we are winning the battle. I will have to say, 
because of the fire plan in those burned areas, we are going to 
win that battle. In some of the eastern areas of the country, 
where the focus is--where the Southern Pine Beetle and the 
Gypsy Moth are taking away a majority of our resources, we are 
a little bit behind.
    Mr. Hefley. What kind of a priority are you giving this 
within the departments? Are you requesting the money you need 
to do the job?
    Mr. Tate. We are systematically looking at this, and we 
have requested, as I had mentioned in the case of the National 
Park Service, additional teams, and that is in the 2002 budget, 
and we are looking hard at the 2003 budget right now. We do see 
additional needs and we will be making additional requests.
    Mr. Rains. I think in the Department of Agriculture--I 
think in the past we might have begun to focus a little bit too 
much on what I call insect and diseases. But every now and 
again there is a catalytic event, and really perhaps the fire 
plan was that for us. So, in the last year or two, we have been 
aggressively asking for and planning for the type of funds that 
we need, and I think Secretary Veneman is going to do a 
marvelous job for us, in being able to make some real strong, 
legitimate requests for us.
    Mr. Hefley. Well, thank you very much, all of you. We 
appreciate your being here and we look forward to working with 
you to try to perfect this piece of legislation so it will be 
an additional weapon you can use in the battle.
    The next panel will be composed of Dr. George Beck, 
Professor of Weed Science at Colorado State University; Mr. Bob 
Skinner, who is a rancher, National Cattlemen's Beef 
Association, from Oregon; Dr. John Randall, Director, Wildland 
Invasive Species Program, from the Nature Conservancy; Mr. Mike 
Carroll, Vice President of the North American Weed Management 
Association, Fort Collins, Colorado; and Dr. Terry Riley, 
Director of Conservation, Wildlife Management Institute, 
Washington, D.C.
    Okay, I would want to remind you again, if you would, to 
try to hold your testimony to 5 minutes. Your entire testimony 
will be put in the record, so if you would summarize it for me.
    We will start with Dr. Beck, from Fort Collins, Colorado. 
Welcome to Washington D.C., Dr. Beck.

STATEMENT OF GEORGE BECK, PROFESSOR OF WEED SCIENCE AT COLORADO 
                        STATE UNIVERSITY

    Mr. Beck. Thank you, Mr. Chairman. I am grateful for the 
opportunity to testify in support of H.R. 1462, the Harmful 
Non-Native Weed Control Act of 2001, and indeed, it is an honor 
to do so. My name is George Beck and I am a professor of weed 
science at Colorado State University. I also am the Chairman of 
the Intermountain Noxious Weed Advisory Council, also known as 
INWAC. Invasive weeds threaten the integrity and environmental 
stability of our ecosystems, and dramatically interfere with 
agriculture production. The serious nature of this problem 
across our nation certainly requires that a concerted weed 
management effort be waged by private landowners and public 
land managers alike if we are to be successful.
    I believe H.R. 1462 will help us to succeed and there are 
many positive aspects to the bill. The bill will provide much-
needed funds to manage basic weeds throughout our country. 
Certainly, weed management is expensive and easily can cost 
from $100 to $200 per acre. Financial assistance from H.R. 1462 
will help to defray weed management expenses and stimulate more 
people to become involved in this effort. Our collective 
experience at the county weed district level clearly 
demonstrates that financial assistance often engages the most 
recalcitrant of landowners in weed management.
    Federal land managers have been frustrated by the cost of 
weed management because of their inadequate budgets. For many 
years, INWAC has recommended to Federal agencies that they 
augment their weed management budgets. While some progress has 
been made, their budgets do still remain inadequate. H.R. 1462 
will certainly help to alleviate the situation, but Federal 
agencies still must dramatically increase their weed management 
budgets through the normal process.
    H.R. 1462 will be awarded to weed management entities, thus 
the bill will foster the formation of weed management areas, 
and weeds are more efficiently and effectively managed on a 
landscape or watershed scale, and doing so creates the 
opportunity to form partnerships where all participants have 
ownership in project planning and implementation. When one has 
a sense of ownership, they become engaged willingly and 
actively. Fostering such partnerships is an extremely powerful 
aspect to H.R. 1462.
    Grant funds in California, Montana and Colorado have 
encouraged landowners and land managers to become organized 
into weed management areas. Clearly, this is outstanding and 
H.R. 1462 will be a powerful engine to take this process to the 
next level. Also, the bill appropriately limits the duration of 
incentive payments so as to encourage weed management entities 
to become self-sufficient, thereby preserving funds to help 
others become organized.
    There are, however, a few aspects of the bill that deserve 
attention or clarification. Many are concerned about how funds 
associated with the goals of H.R. 1462 will affect existing 
programs within Federal agencies. The funds to support the bill 
should be new monies and should not be taken from existing 
Federal land management programs. Taking monies from existing 
programs to fund H.R. 1462 may well cause a setback in invasive 
weed management by Federal agencies.
    There are active weed management areas in the West that 
include partners from several States, and Colorado is an 
excellent example of the need for States to cooperate and form 
multistate weed management areas. We are the headwaters for 
several major rivers that flow throughout the West and, for 
example, salt cedar infests the Colorado River and small 
tributaries near Rifle and Silt. These then serve as 
infestation sources for the entire river drainage from Rifle 
clear to the Gulf of California.
    H.R. 1462 should encourage the formation of multistate weed 
management areas, but instead, it prohibits using funds to 
operate weed management areas in more than one State. This is 
confusing and potentially counterproductive to the goals of the 
bill. Research based information is the fundamental component 
for developing weed management, and while data are available 
for the majority of invasive weeds, certainly not all the 
questions have been answered and new weeds continue to show up. 
Funds from H.R. 1462 should be available to support applied 
research that provides immediate and practical results when 
necessary. H.R. 1462 prohibits the use of funds to manage weeds 
on land that is used to produce an agricultural commodity, but 
appropriately excludes livestock production from this 
prohibition. However, the definitions cited are broad enough 
that when subjected to interpretation, it may lead to 
logistical problems when administering the bill.
    In summary, H.R. 1462 is an outstanding bill that will take 
our collective weed management efforts in our country to a new 
and much more appropriate level than we currently enjoy. The 
essence of invasive weed management is to be a good neighbor 
and a conscientious steward of the land. H.R. 1462 will help 
promote these fundamental tenets. Thank you very much, sir.
    [The prepared statement of Mr. Beck follows:]

Statement of K. George Beck, Ph.D., Professor of Weed Science, Colorado 
  State University, also representing The Intermountain Noxious Weed 
                            Advisory Council

    Mr. Chairman and Honorable Members of the Committee, I am grateful 
for the opportunity to testify in support of H.R. 1462, the Harmful 
Nonnative Weed Control Act of 2001. Indeed, it is an honor to do so. My 
name is George Beck. I am a Professor of Weed Science at Colorado State 
University in Fort Collins, Colorado, and I also am chairman of the 
Intermountain Noxious Weed Advisory Council. INWAC has worked 
diligently since its inception in 1987 to raise the awareness of the 
problems associated with invasive, nonnative weeds throughout the 
western United States, particularly on lands managed by the federal 
government. Invasive weeds threaten the integrity and environmental 
stability of our ecosystems and dramatically interfere with 
agricultural production systems. Invasive weeds displace native plants, 
decrease native biological diversity, and disrupt established ecosystem 
processes. Invasive weeds also decrease livestock production on 
rangelands and pastures, decrease crop yields, and decrease wildlife 
habitat. The breadth and serious nature of this problem across our 
nation certainly requires that a concerted weed management effort be 
waged by private landowners and public land managers, if we are to be 
successful.
    H.R. 1462 will provide much-needed funds to manage invasive weeds 
throughout our country. Weed management is expensive and easily can 
cost from $100 to $200 per acre especially if seeding of desirable 
plant species is necessary. Financial assistance provided by H.R. 1462 
will help to defray weed management expenses and stimulate more 
landowners and land managers to become engaged in this effort. Our 
collective experience at the county weed district level clearly 
demonstrates that financial assistance often engages the recalcitrant 
landowner in weed management. Federal land managers in particular have 
been frustrated by the cost of weed management because of inadequate 
budgets. For many years, INWAC has recommended to federal agencies that 
they request additional funds targeted specifically for weed 
management. While some progress has been made, federal agency budgets 
for weed management remain inadequate. H.R. 1462 will help to alleviate 
this situation, but federal agencies still must dramatically increase 
their weed management budgets through the normal fiscal process.
    H.R. 1462 funds will be awarded to weed management entities; thus, 
the bill will foster the formation of weed management areas and 
stimulate a concerted weed management effort. Weeds are more 
efficiently and effectively managed on a landscape or watershed scale. 
Managing weeds in a watershed or across a landscape creates the 
opportunity to form partnerships where all participants have ownership 
in project planning and implementation. When one has a sense of 
ownership, they become engaged willingly and actively. Fostering such 
partnerships is an extremely powerful aspect of H.R. 1462 and the bill 
not only will help stimulate new partnerships it also will enhance the 
activities of the many weed management areas that already exist in the 
western United States. Weed management areas such as the Big Hole 
Resource Area in Montana, the Tri-county Weed Management Area in 
Oregon, the Cheyenne River Weed Management Area in Wyoming, the Upper 
Arkansas River Weed Management Area in Colorado, and the Axial Basin 
Weed Management Area also in Colorado area are in operation and poised 
to take advantage of the competitive funds to be made available by H.R. 
1462. Competitive grant funds in California, Montana, and Colorado, 
while modest in comparison to H.R. 1462, have encouraged landowners and 
land managers to cooperate and become organized into weed management 
areas in a fashion that otherwise would not have occurred. Clearly, 
this is outstanding and H.R. 1462 will be a powerful engine to take 
this process to the next level. However, competitive grants only should 
be a tool to boost the activities of existing weed management areas or 
stimulate the formation of new ones such that they become self-
sufficient. H.R. 1462 limits the duration of incentive payments so as 
to encourage weed management areas to become self-sufficient, thereby 
preserving funds to help others become organized.
    There are, however, a few aspects of the bill that deserve 
attention or clarification. Many people are concerned about how funds 
associated with the goals of H.R. 1462 will affect existing programs 
within federal agencies. The funds to support H.R. 1462 should be new 
monies and should not be taken from existing federal land management 
programs. It is critically important that federal agencies continue to 
increase their budgets for weed management in addition to the potential 
help offered by H.R. 1462. Taking money from existing programs to fund 
H.R. 1462 may well cause a setback in invasive weed management by 
federal agencies.
    There are weed management areas in the west that include partners 
from several states. Good examples of these include the Monida Pass 
Weed Management Area on the border of Montana and Idaho where each 
state is trying to keep their weeds from spreading to their neighbor; 
the Team Leafy Spurge Project on the Missouri River breaks where 
multiple governmental agencies and private landowners from Montana, 
Wyoming, North Dakota, and South Dakota employ a coordinated effort to 
battle leafy spurge; and the Greater Yellowstone Weed Management Area 
is perhaps the oldest weed management area in the country and involves 
Montana, Wyoming, and Idaho. Colorado is an excellent example of the 
need for states to cooperate and form multi-state weed management 
areas. We are the headwaters for several major rivers that flow 
throughout the west. Salt cedar infests the small tributaries near 
Rifle and Silt that flow into the Colorado River, which then serve as 
infestation sources for the Colorado River drainage from Rifle to the 
Gulf of California. The North Platte River flows through North Park in 
north central Colorado and on into Wyoming. Leafy spurge infests the 
banks of the North Platte on both sides of the Colorado-Wyoming border 
and a very active weed management area encompasses the neighboring 
counties in each state. H.R. 1462 should encourage the formation of 
multi-state weed management areas, but section 7(d)3(B) prohibits any 
weed management entity from using funds to operate a weed management 
area in more than one state. This is confusing and potentially 
counterproductive to the goals of H.R. 1462.
    Research-based information is the fundamental component for 
developing effective weed management. While data are available for the 
majority of invasive weeds and the various habitats they infest, not 
all the questions have been answered. This is especially the case when 
a new weed occurrence is found. Funds from H.R. 1462 should be 
available to support applied research that provides immediate and 
practical results when necessary. While H.R. 1462 does not prohibit 
funds from being used on research, it is not specifically mentioned. A 
clause in the bill that describes the type of research that could be 
supported would be beneficial.
    H.R. 1462 prohibits use of funds to manage weeds on land that is 
used to produce an agricultural commodity. This is understandable in 
light of other federal programs that are available to crop producers. 
H.R. 1462 excludes livestock production from this prohibition, but the 
definitions cited are broad enough that when subject to interpretation, 
may lead to logistical problems when administering the bill. For 
example, forage growing on rangeland could be construed by some to be 
an agricultural commodity and thus, funds from H.R. 1462 could not be 
used by weed management entities to manage weeds on that land. If this 
occurs, it would be counter to the goals of H.R. 1462. Perhaps language 
could be inserted in the bill that clearly states rangeland and 
pastures upon which forage is grown and directly consumed by grazing 
livestock is excluded as an agricultural commodity.
    H.R. 1462 is an outstanding bill that will help take our collective 
weed management efforts in our country to a new and much more 
appropriate level than we now enjoy. The essence of invasive weed 
management is to be a good neighbor and conscientious steward of the 
land. H.R. 1462 will promote these fundamental tenets.
                                 ______
                                 
    Mr. Hefley. Thank you.
    Mr. Bob Skinner?

 STATEMENT OF BOB SKINNER, RANCHER, NATIONAL CATTLEMEN'S BEEF 
                          ASSOCIATION

    Mr. Skinner. Thank you, Mr. Chairman. My name is Robert 
Skinner. I am here on behalf of the National Cattlemen's Beef 
Association and the Public Lands Council. I want to thank you 
for your interest in my comments concerning weeds and H.R. 
1462. I am a fifth-generation rancher from Jordan Valley, a 
small community in extreme southeastern Oregon. I have lived on 
and operated my family ranch now for over 50 years. My family 
currently owns about 10,000 acres and leases well over 30,000 
acres from the BLM, on which we graze livestock.
    The reason I am here today is because I have a vested 
interest in the health of our rangeland resources, and it is 
absolutely crucial that we act now for the sake of the 
resource-dependent industries, as well as the watersheds and 
ecosystems. Folks, we are fighting a war on weeds out West, and 
weeds are like a dreaded cancer. Once invaded, there is a 
certain point where treatment becomes almost feudal. But if we 
treat the cancer early, our chances of winning will certainly 
greatly improve.
    I became more aware of the magnitude of the weed problem 
when I served on a regional resource advisory council, RAC. 
Recently, our RAC had the opportunity to tour Hell's Canyon 
National Recreation Area. What we witnessed was absolutely 
sobering. From canyon rim to canyon rim, all you could see were 
tens of thousands of acres of Yellow Star Thistle. In fact, our 
local BLM district office asked me to invite you and the 
members of this Committee to take this very same tour up the 
Snake River and the Salmon River in a jet boat, and I strongly 
recommend that you take this trip to witness, firsthand, the 
devastating impact of Yellow Star Thistle to this national 
treasure.
    To fight the weed scourge on Federal lands in Fiscal Year 
2002, the Forest Service plans to treat 85,000 acres, while BLM 
plans to treat 245,000 acres. The number of acres these 
agencies plan to treat is rather trivial, considering that the 
Forest Service manages approximately 192 million acres, or an 
area larger than Texas. The BLM manages over 264 million acres 
or about one-eighth of the total land mass of the United 
States. Simply put, this means the Forest Service is treating 
roughly one out of every 2,300 acres, and BLM is treating one 
out of every 1,100 acres. Numbers do not lie and these figures 
speak volumes on the dire need for more weed management 
activity by these two agencies.
    In comparison, my home county covers 9,926 square miles, or 
close to 6.5 million acres. Furthermore, there are 36 counties 
in Oregon, and the Forest Service and BLM could expend their 
entire planned effort in my home state, or my home county for 
that matter, and not even a make a dent in the weed crisis. My 
county and the state of Oregon are not alone in this 
predicament. Imagine this scenario repeated for every rural 
county.
    H.R. 1462 is a gallant effort and a needed effort by 
Congress to address the weed problem. However, we believe the 
bill could be improved. For instance, the bill caps the Federal 
cost share of any financial award to 50 percent. When we are 
confronted with a serious invasion, we have to have the ability 
to focus as many resources as possible to fighting that 
problem. We need a provision allowing for up to 100 percent of 
the Federal share of the financial award to effectively fight 
that problem. I am also concerned with the multiple state 
section. I am afraid weeds straddling lines cannot be properly 
treated under this provision. Weeds absolutely know no 
boundaries and geographic location should not be a restriction 
to receiving any funding.
    Overall, perhaps my biggest concern with the bill is the 
lack of a NEPA exemption, and in my area, the BLM is constantly 
under attack for undertaking any management action at all, 
regardless of whether the action will actually benefit the 
resources. These delays can actually have a devastating effect 
on the very environment that it tries to protect.
    In closing, I support the goals of H.R. 1462. It provides 
the necessary funding to help us wage the war on the weeds on 
the ground. The Federal land management agencies currently do 
not have the capability to address the problem sufficiently, 
and the bill directs funds where needed most, at the local 
level. We need a collaborative and cooperative approach between 
the Federal, State and local governments' weed management 
entities, citizens, coupled with more Federal funding to tackle 
the current problem. Thank you, Mr. Chairman, for the 
opportunity to speak to you and members of the Committee today, 
and I will be happy to answer any questions at the end.
    [The prepared statement of Mr. Skinner follows:]

 Statement of Mr. Bob Skinner, Jordan Valley, Oregon, on behalf of the 
    National Cattlemen's Beef Association, and Public Lands Council

    Chairman Hefley and Distinguished Members of the House Resources 
Committee:
    On behalf of the National Cattlemen's Beef Association (NCBA), the 
trade association of America's cattle farmers and ranchers, and the 
marketing organization for the largest segment of the nation's food and 
fiber industry, and the Public Lands Council (PLC), a non-profit 
organization representing over 27,000 federal grazing permittees, thank 
you for your interest in my comments concerning very important matters 
to me, weed eradication and H.R. 1462. I appreciate the opportunity to 
express my concerns about the war currently being waged on weeds across 
the West and in my own backyard.
    I am a fifth generation rancher from Jordan Valley, Oregon, a small 
community in southeastern Oregon close to the Oregon/Idaho border and 
approximately 100 miles southwest of Boise, Idaho. I have resided on 
and operated my family ranch for over 50 years. I am a member of NCBA, 
the PLC and the Oregon Cattlemen's Association (OCA). I serve on NCBA's 
Board of Directors for the Policy Division and as President-elect for 
OCA. I am speaking today in support of H.R. 1462 as a rancher, a 
citizen and as a member of these organizations.
    I am here today to discuss my experience and share some 
observations about harmful nonnative plants. I would also like to share 
my thoughts on H.R. 1462. Hopefully my comments will provide some 
insight into our country's weed problem.
    The spread of weeds is a matter of grave concern to me. My family 
owns over 10,000 deeded acres and leases well over 30,000 acres from 
the Bureau of Land Management (BLM) on which we graze livestock. 
Therefore, I have a vested interest in the health of my own land as 
well as the land surrounding my private acreage.
    Members of the Committee, we are fighting a war out West. A war 
that in many places has already been lost. The enemy in the war I am 
speaking about is weeds. I am currently fighting new invasions of leafy 
spurge, yellow starthistle and pepperweed. These weeds are like cancer. 
Once we are invaded, there is a certain point where treatment becomes 
futile. However, if we treat the cancer early in the process our 
chances of winning greatly improve. We absolutely have to strike now or 
we will continue to lose huge masses of this nation's land resources. 
Recovery will be extremely expensive, if recovery is at all possible.
    I am a federal lands rancher and like my 27,000 counterparts, face 
major weed problems. Some ranchers face weed problems that cannot 
immediately be solved. Others face problems that can at least be fought 
to a standstill. Nonetheless, the majority of us are facing severe 
problems that require urgent action. These ranchers and farmers lease 
federal land managed by the BLM or the United States Forest Service 
(USFS). We use this land to graze cattle, horses, sheep or goats. 
Livestock, namely sheep and goats, may consume noxious or invasive 
weeds and can be used as an effective tool in weed management. However, 
for the most part, cattle, wild horses and burros, and wildlife do not 
consume noxious weeds except only when other native forage is not 
available. Some weeds, such as the yellow larkspur, tansy ragwort, and 
locoweed, can be harmful or even lethal if consumed. Leafy spurge can 
cause irritation of the mouth and digestive tract of cattle and wild 
ungulates and may even result in death.
    In spite of all these dangerous weeds, I am not here today to 
discuss the health hazards of weeds to animals. I am more concerned 
about the impact of weeds on ecosystems and the environment. It is 
absolutely imperative for the sake of our resource dependent industry, 
wildlife, wildlife habitat, endangered species, native plants, 
watersheds and the entire ecosystem that we act now.
    I have lived in Jordan Valley for over 50 years and I have never 
seen a threat as severe I am witnessing now. In many areas of the West, 
weeds have completely consumed vast areas of federal land. The federal 
government is the major landowner in my home county. As the major 
landowner, the government must do their part or all landowners' efforts 
are fruitless. If the government wants to own land, it has to take 
responsibility for managing it properly.
    For example, the Malheur National Wildlife Refuge (MNWR) is the 
largest national wildlife refuge in the United States and completely 
overrun by pepperweed. The MNWR is approximately 60 air miles west of 
my ranch. Pepperweed can grow up to six feet tall and in extremely 
dense growth resulting in the destruction or diminution of wildlife 
habitat. It shocks the conscience to see this wildlife refuge being 
destroyed by pepperweed and other nonnative weeds. I find it ironic 
where the government has set aside land to preserve and enhance 
wildlife and wildlife habitat, the government's failure to address the 
weed problem has destroyed the very purpose the refuge was set aside to 
accomplish.
    Furthermore, pepperweed on the MNWR, or anywhere else, is 
particularly problematic since it produces a waterborne seed. 
Pepperweed is now spreading onto contiguous lands via any available 
watercourse. In effect, pepperweed on the MNWR is a source of 
infestation for lands downstream from this wildlife refuge. Whatever 
occurs on the MNWR affects all the surrounding landowners, whether they 
are private individuals or the state or federal government. The spread 
of pepperweed is not just restricted to contiguous landowners, the 
entire watershed is now affected. No matter what landowners downstream 
try to do, they are constantly susceptible to new invasions. Now, pause 
for a moment and imagine this scenario played out across the entire 
West. As I stated earlier, we must declare war on these invaders.
    I have been involved in fighting weeds for a number of years now. I 
became more aware of the significance of the weed problem when former 
Secretary of the Interior, Secretary Babbitt, appointed me to serve on 
our local Resource Advisory Council (RAC). The weed problem was one of 
the most important issues our RAC faced. The BLM provided field tours 
for the RAC with the intent of examining the weed problem. While the 
BLM appears willing to address the weed problem they are severely 
lacking in manpower and financial resources to complete the task. More 
funding is needed, more manpower is needed, and more collective effort 
is needed.
    Recently, our RAC had the opportunity to tour Hell's Canyon 
National Recreation Area (HCNRA). Hell's Canyon spans the Oregon and 
Idaho border and is located north of Boise. The BLM offered to take 
members of our RAC on a boat tour of the area to see first hand one of 
the worst invasions by a nonnative weed in the West. What we witnessed 
was a sobering sight, all we could see were thousands of acres of 
yellow starthistle from canyon rim to canyon rim. This weed-infested 
landscape extended for mile after mile. Yellow starthistle is a 
horrible weed and can grow to three feet tall and contains very sharp 
thorns. It grows very thick, chokes out almost all competing plants. 
Walking through it requires snakeboots, leather pants or the equivalent 
to be protected from its vicious spines. This weed is dangerous to 
wildlife, livestock or anything attempting to consume it. Wildlife or 
livestock will not eat this plant due to its viscous thorns. What used 
to be an area of breathtaking beauty is now overcome with an ugly 
scourge. The topography restricts aerial spraying and in a lot of 
areas, even hand spraying. Hell's Canyon is just another example 
illustrating what can happen if strict and effective control is not 
extended early in the process.
    I have also become more engaged with our local weed organization, 
the Malheur County Weed Advisory Board. This Board consists of seven 
members appointed by the County Court. The Board's purpose is to assist 
county citizens in controlling and eradicating noxious weeds in the 
county. Malheur County also has a County Weed Inspector. These people 
have been a great resource in identifying weeds, determining the best 
control measures such as spraying, chemicals, organic methods and 
identifying the best time to treat the weed. So far, this practice has 
worked well.
    Considering demographics, Malheur County is a very large county. 
The county is the state's second largest in total acreage. It is 94 
percent rangeland, two-thirds of which is controlled by the BLM. 
Malheur County is also one of Oregon's most rural counties with only 
about 28,000 residents. Furthermore, most of these residents rely on 
agriculture in some fashion such as growing, processing, packing or 
other business supporting agriculture. Irrigated fields in the county's 
northeastern corner, known as Western Treasure Valley, are the center 
of intensive and diversified farming. With such a large dependence on 
agriculture, weeds pose a major threat to the economic well-being of 
Malheur County. Thus, weeds and weed management are of vital importance 
to my agriculture-dependent county.
    Since Malheur County is a rural county and heavily dependent on 
agriculture, you can imagine the pressures the Malheur Weed Advisory 
Board and County Weed Inspector face. Weeds have no regard for 
economics, heritage, public or private land, livelihoods or any type of 
boundary. Noxious weeds will continue to spread and place added 
pressure on the residents of Malheur County, the Weed Board and the 
Weed Inspector. The same holds true for almost every other rural county 
throughout the West.
    As I stated before, luckily our Weed Board has been somewhat 
successful in stemming the invasion of noxious weeds. However, we are 
fighting a losing battle. In fact, I recently noticed new colonies of 
leafy spurge in areas that were completely free of this nonnative 
noxious weed. Soon, our Weed Board will not be able to handle all the 
demands for assistance. Without further economic assistance, our Weed 
Board and County will not be able to cope with the assault upon the 
county by weeds. The bottom line is that more funding and resources 
must be devoted to battling noxious weeds.
    Weeds are a major problem out West. They threaten the livelihood of 
western communities, county infrastructure, the rural landscape and our 
range resources. Action needs to be taken soon. I am pleased to finally 
see a mechanism to assist localities in the battle against a ubiquitous 
and persistent enemy. H.R. 1462 is that mechanism. I support this bill 
and would like to see its passage. H.R. 1462 is a good start to help 
our war against weeds. I do have some concerns, however, and also some 
praise for the bill. I will also provide my recommendations on how we 
can improve the bill.
    First of all, I like the emphasis on local participation required 
by this bill. Effective weed management cannot take place without the 
input of local citizens. When you are fighting a weed problem you will 
find that landowners and interested citizens will be more than willing 
to do whatever can be done to defeat the invasion or control the 
spread. Providing funds at the local level in order to battle weeds on 
federal or private lands is much more efficient and effective than 
anything federal agencies can perform. I am not saying that federal 
agencies cannot perform the task, currently the BLM and USFS simply 
lack the manpower, resources and budget to undertake the necessary 
countermeasures against weeds.
    Every year the BLM and USFS are appropriated funds specifically for 
fighting weeds. For Fiscal Year 2002, the USFS plans to target 85,000 
acres for noxious weed control while the BLM plans to treat 245,000 
acres. I am sure that weed infestation on federal lands far exceeds the 
number of acres these agencies plan to treat. In fact, the number of 
acres these two agencies plan to treat are rather paltry considering 
that the USFS manages approximately 192 million acres, an area larger 
than the state of Texas. The BLM manages over 264 million acres, or 
about one-eighth of the U.S. land mass. This means that the USFS is 
only treating approximately one out of every 2,300 acres. For the BLM, 
roughly one out of 1,100 acres will be treated. Numbers do not lie and 
these figures speak volumes on the need for more resources and activity 
in weed management by these two federal agencies.
    In comparison, my home county, Malheur County, covers 9,926 square 
miles. With one square mile equaling 640 acres, Malheur County consists 
of 6,352,640 acres. The BLM's and USFS's planned treatment could not 
come anywhere close to covering my county. There are 36 counties in 
Oregon and the USFS and BLM could expend their entire planned treatment 
acreage in Oregon and not even make a dent in the weed crisis. This 
lack of focus on weed management on federal lands boggles the mind that 
more effort has not been extended to address the weed problem. Again, 
imagine this scenario repeated for every rural county across the West. 
My county and the state of Oregon are not alone in this predicament.
    Fortunately, the majority of rural counties have weed advisory 
boards or weed management entities. Currently, most of these weed 
management entities obtain funding directly from the state with some 
funding coming from the county. Since my county has a weed management 
entity that would be eligible for funding under this bill, I hope to 
see this bill pass. Nonetheless, most counties' resources are limited 
with most of the work being completed by individual landowners. 
Moreover, most of these weed groups are not allowed to extend any 
management effort to federal lands. In counties with high percentages 
of federal lands, most of the management activity is restricted to 
controlling weeds on rights-of-way. We need to extend these management 
efforts onto federal lands in order to obtain results and to finally 
gain some control of our country's weed problem. Only when we can 
achieve cooperation and collaboration with the federal agencies, state 
agencies and local weed control groups will we see results.
    The above statistics and the necessity for more effort on federal 
lands signify the importance and need for H.R. 1462. As good as this 
bill is, I believe that the bill can be improved. For instance, the 
bill limits the federal cost share of any financial award to 50 
percent. I believe that when we are confronted with a severe invasion, 
we must divert as many resources to the problem as possible. I would 
like to see a provision that allows an increase to a maximum of 100% of 
the federal share to meet the need. We must extend all available 
resources if we really want to see success. Such a provision already 
exists in the bill under Section 7(b) (C)(ii). Placing a similar 
provision under the financial awards section can only improve this 
bill.
    I am also concerned with Section 7(d)(3)(B), titled ``Multiple 
States.'' As I have stated previously, weeds know no boundaries and I 
live near a state line. Does Section 7(d)(3)(B) mean that my weed 
management group cannot treat weeds straddling the Oregon and Idaho 
border? What about other citizens, ranchers or groups in the same 
situation? Geographic location should not be a restriction to receiving 
any funding in this bill. Many areas in the West are considerably 
remote with the only access being from a neighboring state. Federal 
agencies realize this and often one jurisdictional district extends 
into another adjoining state in order to facilitate administration and 
management. To facilitate weed control and improve the bill to achieve 
the H.R. 1462's goals, Section 7(d)(3)(B) must be removed.
    Perhaps my biggest concern with H.R. 1462 is the lack of National 
Environmental Policy Act (NEPA) exclusion language. In my area, the BLM 
is constantly under attack by radical obstructionists for undertaking 
any management decision, irregardless of whether the decision will 
actually benefit the environment, ecosystem, riparian area, habitat, or 
endangered species. Radical obstructionists initiate these attacks and 
seek to stop or at least hinder any action planned by the BLM. The 
result is that problems or issues that require immediate action are 
suspended or delayed leading to more environmental degradation, 
increased cost and overall frustration. My problem here is not with 
environmentalists per se, but with radical, obstruction-minded 
environmentalists. Delays caused by radical obstructionists, while 
proclaiming to save the environment, essentially destroy the very 
environment we are trying to protect. A NEPA exclusion will demonstrate 
to the world Congress's commitment to protect our natural resources 
from weeds.
    I have worked with many environmental groups and most are rational 
and favor decisions and activities based on sound science devoid of 
political maneuvering. In fact, this very bill has the support of The 
Nature Conservancy (TNC). TNC has worked diligently with NCBA and PLC 
staff to help bring this bill to fruition. I sincerely applaud TNC's 
efforts on this bill. This type of combined effort between industry and 
conservation groups is the kind of effort that can only bring positive 
results.
    In closing, NCBA and PLC support this bill. H.R. 1462 provides the 
funding necessary to help wage the war against weeds on private, state, 
and federal lands. The BLM and USFS do not have the capacity to 
adequately address the weed problem. This bill directs funding where 
resources are needed the most--at the local level and on the ground. We 
need a collaborative and cooperative approach with more federal funding 
directed to problems on the ground. We need this bill to stem the tide 
of the harmful nonnative weed invasion. Otherwise, we will lose more 
habitat to weeds. Unless we act soon, rangelands will continue to 
disappear and continue to be inundated with weeds. Moreover, wildlife 
will be forced to move off of public lands onto private lands resulting 
in more human/wildlife conflicts.
    Thank you Mr. Chairman for the opportunity to visit with you and 
the House Resources Committee today. I look forward to further 
discussion on weeds and weed management. We need to take action, 
immediate and tough action to control the weed problem in order to 
preserve our environment, wildlife habitat and our range resources. I 
will be happy to answer any questions you or Members of the Committee 
may have.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Skinner.
    Dr. Randall?

 STATEMENT OF JOHN RANDALL, Ph.D., DIRECTOR, WILDLAND INVASIVE 
            SPECIES PROGRAM, THE NATURE CONSERVANCY

    Mr. Randall. Thank you, Mr. Chairman and members of the 
Subcommittee and staff. I appreciate the opportunity to testify 
on behalf of H.R. 1462 today, and in particular, I am grateful 
for the opportunity to bring more attention to the issue of 
invasive species. I am Dr. John Randall. I represent the Nature 
Conservancy. I lead our invasive species program. The 
Conservancy is a private, nonprofit conservation organization. 
We have 1.1 million individual members and over 1,900 corporate 
sponsors. We have programs in all 50 States and in 27 other 
countries. To date, we have protected more than 12 million 
acres in the 50 States and we have worked with partner 
organizations to protect tens of millions of acres in other 
countries. We, ourselves, own over 1,300 preserves. That is the 
largest private nature sanctuary system in the world.
    I say all this by way of giving background on our group 
because we are a little different than the others who are here, 
and I want to make clear why we care as much as we do about the 
issue. I want to make four points in my summary of the 
testimony. The first one is that weed invasions are a severe 
threat to native plants and animals and, as such, are a major 
problem for the Nature Conservancy and other conservation 
groups.
    The second point is that we regard the suite of invaders, 
plants and animals, as a problem, and would love to see 
Congress take action to address them all, but we recognize that 
often on complex issues, such as this, incremental progress is 
the way forward.
    The third point is that we have direct experience working 
in and with cooperative weed management areas and other similar 
entities across the country in various States, and we see them 
as effective.
    The fourth point is, finally, that we support this bill and 
recommend it be funded with uncommitted funds. It can be most 
effective only if the complementary Federal work in the Federal 
land managing agencies continues and grows, in fact.
    Now I would like to make some more detailed remarks. The 
Conservancy determines how and where to do its work through a 
fairly rigorous process of planning that helps us identify 
where we should do our work. We then analyze the threats that 
we face that are present to biological diversity at these 
sites. We have recently done a summary of sites across the 
country and, indeed, in other sites across the world and found 
that the number one, the widest threat that we faced, was 
invasive species. It was surprisingly not other threats that 
come more commonly to mind.
    Now, this is reflected in the information that in terms of 
bio-diversity threats worldwide, it is now commonly regarded 
that invasive species are the second greatest threat that is 
present. We found at sites that they were the single most 
widespread threat. This has brought the issue to the attention 
of all of our higher level executives. This is a major problem 
for us, and weeds are one aspect of that.
    We recognize also that there are threats to economic 
interests, including ranching and others, and that is why we 
have been working together with the National Cattlemen's Beef 
Association to support this bill, and with other partners, as 
well. We often find that these economic interests are 
dovetailed very well with our interest in protecting biological 
diversity. Here, we clearly have a common problem that we can 
work together on. Cooperative weed management areas and, again, 
similar entities that would be funded under this bill in all 
the States are an excellent way to go forward with this.
    We would also like to point out that in the Senate 
version--Senate 198, the companion bill to H.R. 1462, was 
introduced, as you heard this morning by Senator Craig, but 
also Senators Daschle, Conrad, Crapo, Smith, Burns, Johnson and 
Dorgan--and since its introduction, has been cosponsored by 
Senators Wyden, Akaka and Inouye. What we see there is a 
beautiful representation of the bipartisan support for this 
bill.
    I want to discuss a little bit the weed management entities 
that would be supported financially by this bill. They are not 
a creation of this bill. As you heard before, they exist in 
many States. California has more than 30 cooperative weed 
management areas. There are cooperative weed management areas 
or demonstration weed management areas in many or most of the 
Western States. There are similar entities, often under 
different names, in the East, as well. We are involved in them 
in various states; Massachusetts, Pennsylvania, Florida. We see 
that they work. They do good work. They bring people together. 
They help them decide on their common interests and set 
priorities. They deserve funding.
    The bill also addresses the fact that some States may not 
be as organized as others to fight weeds, and for this reason 
incentive payments are made available to stimulate formation of 
these entities. And, funds are explicitly made available for 
Indian tribes in recognition of the large role they play in the 
control of invasive weeds.
    We would also like to make a point that has been previously 
made by other witnesses, that local cooperation also crosses 
State lines. We are involved ourselves in the Tristate 
Demonstration Weed Management Area, which encompasses parts of 
Idaho, Oregon and Washington. This is an excellent weed 
management area. This illustrates beautifully why the 
amendment, a change in language that would include multistate 
weed management entities, would be valuable and helpful.
    We would like to address the questions that have been asked 
about the fact that the bill bars payments for projects related 
to submerged and floating aquatic noxious weeds. As I had 
mentioned earlier, our concern is with all invaders that are 
harmful to biological diversity, and we would love to see 
Congress enact legislation that effectively addresses all 
aquatic weeds and animal pests, but we do believe that progress 
on an issue like this is complex and can be achieved best 
incrementally. We also understand that under the Aquatics Act, 
which we hope to see amended or reauthorized in the next year 
or the year after, that some of these species will be 
addressed. We would like to point out that wetland species, 
such as Purple Loose Strife, are explicitly covered under this 
bill.
    Finally, I would like to speak to the amount of funding. 
There is no existing independent Federal account to address the 
issues presented by non-native, harmful weeds across private 
and public lands. There is a great case to be made for enhanced 
Federal involvement here. In connection with preparing this 
testimony, we went to various States, to do a survey of their 
needs. We were only able to reach, I believe, 12 States, and 
they reported an unmet need for funding for these entities in 
excess of $219 million. Divided by 12, that equals about, 
$18.25 million per state. Multiply back out by 50 and we get 
something over $900 million. That is what we believe to be a 
very conservative estimate. In light of this, we would like to 
see Congress authorize an expenditure of up to $300 million for 
H.R. 1462. That ends my prepared testimony and I would be glad 
to answer questions as well.
    [The prepared statement of Mr. Randall follows:]

Statement of John M. Randall, Ph. D., Wildland Invasive Species Program 
                    Director, The Nature Conservancy

    Mr. Chairman, and members of the Subcommittee, I appreciate the 
opportunity to submit this testimony for the record on H.R. 1462, the 
Harmful Nonnative Weed Control Act of 2001. In particular, I would like 
to thank the Chairman for holding this hearing which is bringing needed 
attention to the importance of the noxious weeds issue and the vital 
role that H.R. 1462 may play in abating this pernicious threat to both 
our heritage of native species and natural communities and the economic 
livelihood of our nation's farmers, ranchers, and foresters.
    The Nature Conservancy is dedicated to preserving the plants, 
animals and natural communities that represent the diversity of life on 
Earth by protecting the lands and waters they need to survive. The 
Conservancy has more than 1.1 million individual members and over 1,900 
corporate sponsors. We currently have programs in all 50 states and in 
27 nations. To date our organization has protected more than 12 million 
acres in the 50 states and abroad, and has helped local partner 
organizations preserve millions of acres in other nations. The 
Conservancy itself owns more than 1,340 preserves--the largest private 
system of nature sanctuaries in the world. Our conservation work is 
grounded on sound science, strong partnerships with other landowners, 
and tangible results at local places.
    The Conservancy determines where and how to do its work through a 
planning process that identifies areas in the country containing the 
most viable and important examples of plant and animal communities. 
This process further identifies the principal threats to the integrity 
of the sites such as land conversion, non-point source runoff, or 
repression of natural fire regimes. An overwhelming 94% of our sites 
have identified invasive species as the most significant threat to the 
integrity of biodiversity. The next most important threat, development 
of roads or utilities, was identified by 62% of reporting sites.

HARMFUL NON-NATIVE WEED PROBLEM
    Non-native weeds cause severe economic and environmental losses. 
Generally, non-native weeds damage ranch, farming, and natural lands by 
out-competing and replacing indigenous vegetation. Loss of this 
vegetation can transform the physical characteristics of the affected 
landscape as well as eliminate the animal species that depend on the 
native vegetation. Invasive plants and animals are now widely 
recognized as second only to habitat loss as threat to biological 
diversity. Unlike pollution, invasive organisms continue to spread on 
their own and do not degrade with time. Once introduced, invasive weeds 
can spread from site to site, region to region, without further human 
assistance. Rare species appear to be particularly vulnerable to the 
changes wrought by non-native invaders, but even relatively common 
plants or animals can be driven to near extinction by particularly 
disruptive invaders.
    Conservative estimates are that non-native harmful weeds exact a 
price of hundreds of millions of dollars each year in losses and 
control costs to the nation's farmers and ranchers. In particular, the 
Federal Interagency Weed Committee attributed a $20 billion annual loss 
in the productivity of our nation's agricultural sector to damages 
caused by noxious weeds. The Idaho Department of Agriculture has 
estimated the cost of noxious weed damage on all Idaho lands to be $300 
million annually. A study of the damage caused by leafy spurge in 
Montana, Wyoming, and North and South Dakota showed a reduction of $129 
million annually to the regional economy and to ranchers' net income. 
Although we are not aware of any study documenting this issue, losses 
of this magnitude logically translate to higher costs for consumers for 
agricultural products.
    Non-native harmful weeds also cause severe damage to America's 
public and private natural areas and wildlands. These are lands set 
aside for the stated purpose of protecting our natural heritage of 
plants, animals, and biological communities. Just as farms and ranches 
are managed for a specific crop or valuable forage, natural areas are 
managed for certain plants, animals, and other organisms. Weeds prevent 
achievement of these goals, and ruin the values for which these lands 
have been dedicated.

H.R. 1462: THE HARMFUL NONNATIVE WEED CONTROL ACT OF 2001
    Organizations and people who have an interest in land, whether an 
economic interest and/or an interest in natural values, recognize the 
seriousness of the threat posed by invasive weeds and are eager to take 
effective action to fight weeds. For this reason, the National 
Cattlemen's Beef Association and The Nature Conservancy are natural 
partners in this fight. Together with a number of Senate and House 
offices and our partners, we have worked to create the Harmful 
Nonnative Weed Control Act of 2001. Members of Congress from both 
parties understand the practical nature of the need to take immediate, 
effective action. In the Senate, S. 198, the companion bill to H.R. 
1462, was introduced by Senators Craig, Daschle, Conrad, Crapo, Smith, 
Burns, Johnson, and Dorgan. Since its introduction, it has been co-
sponsored by Senators Wyden, Akaka, and Inouye.
    H.R. 1462 employs the right approach to fighting weeds. It promotes 
cooperation and control by local public and private stakeholders; it 
makes funds available to public and private entities; it seeks to 
stimulate the creation of additional cooperative efforts; and, it funds 
all activities related to the management of weeds.

1. Weed Management Entities
    Harmful weeds pay no heed to property lines and can only be 
controlled when neighbors work together. For this reason, The Nature 
Conservancy strongly believes the structural heart of H.R. 1462 is the 
weed management entities. These entities consist of local public and 
private landowners who voluntarily come together to fight weeds 
affecting all their lands. Only these entities are eligible to receive 
funding under the program. It is anticipated that federal land managing 
agencies will participate on the entities as good neighbors working to 
fight a common scourge. All stakeholders participating in an entity 
will come to agreement about a proposal to submit to a state government 
for approval. The proposals will address harmful weeds on either 
private or public land, or some combination of the two. States will 
then submit packages of approved proposals to the Department of 
Interior which will make broad allocations of available funds to the 
states based on criteria set forth in the statute. Depending on the 
availability of funds, all projects approved by states may not be 
funded under the allocation made by the Department.
    Weed management entities are not a creation of this bill. They have 
a demonstrated track record of success in leveraging cooperation on the 
ground. California has more than 30 such entities. Other states with 
entities include Arizona, Hawaii, Washington, Oregon, Idaho, Wyoming, 
Colorado, Florida, Utah, Delaware, and Pennsylvania among others. 
Cooperative efforts to fight weeds take place in Massachusetts, New 
York, Illinois, and other states. Descriptions of the activities of 
five of these entities are attached to this statement as Appendix A. 
H.R. 1462 builds on what is already successful. It does not seek to 
impose a different order on those engaged in the states in fighting 
weeds.
    The bill addresses the fact that some states may not be as 
organized as others to fight weeds. For this reason, incentive payments 
are made available to stimulate the formation of entities. 
Additionally, funds are explicitly made available for Indian tribes in 
recognition of the large land areas they control and the important role 
tribes play in the fight.
    A final point about local cooperation is that it also occurs across 
state lines. For example, the Tri-State Demonstration Weed Management 
Area is composed of local stakeholders from Idaho, Oregon, and 
Washington who have banded together to fight weeds in Hells Canyon. The 
Senate version of H.R. 1462 recognized multi-state weed management 
entities and authorized funding for them. H.R. 1462 does not include 
this provision. The Conservancy urges the Committee to include 
recognition of multi-state weed management entities in its bill out of 
deference to the judgment of people leading the fight on the ground.

2. Funding
A. Scope of Funded Activities
    The Harmful Nonnative Weed Control Act provides funding for 
education, inventories and mapping, management, and monitoring related 
to the control or eradication of weeds. The Senate bill also provides 
funding for innovative practices and we urge this Committee to include 
a similar provision in its bill. More work needs to be done by experts 
to determine the most effective methods for controlling weeds, and this 
bill should support these efforts. Additionally, it would be helpful 
for the bill to explicitly authorize payment for restoration of 
vegetation on land damaged by weeds since proper restoration is one of 
the more important steps that can be taken to suppress future 
infestations.
    The bill bars payments for projects related to submerged or 
floating aquatic noxious weeds or animal pests. As indicated above, 
invasive species are an issue of the highest concern to The Nature 
Conservancy. We want Congress to enact legislation that effectively 
addresses all invasives, including aquatic weeds and animal pests. We 
also believe that progress on complex issues often occurs 
incrementally. This is the first major piece of legislation to emerge 
since the issue of invasives received a boost in attention with the 
issuance of the Executive Order in February, 1999. We urge Congress to 
seize this opportunity to take effective action against a problem 
ruining the economic and natural value of our lands. Aquatic weeds and 
animal pests will be addressed during reauthorization of the National 
Invasive Species Act in the next session of Congress. The Nature 
Conservancy anticipates being fully engaged and supportive of efforts 
to strengthen that legislation when its time arrives for attention from 
this body.

B. Amount of Funding
    There is no existing independent federal account to address the 
issues presented by non-native harmful weeds across private and public 
lands. The case for an enhanced federal role in providing funding is 
that existing sources of funds do not come close to addressing the need 
for management of noxious weeds on public and private lands and across 
state borders.
    In connection with preparing this testimony, the Conservancy 
attempted to conduct a survey of states to determine what their funding 
needs are to fight weeds. The collected information presents at least a 
ballpark estimate of the kind of funding twelve states have determined 
their agencies are capable of using to fight weeds. The information 
does not address the larger question of how much funding is needed to 
address the underlying resource issue. In conducting this survey, we 
also learned that many states have made slow progress in determining 
the scope and cost of weed infestation and damages in their states.
    The twelve surveyed states reported an unmet need for funding in 
excess of $219 million annually. <SUP>1</SUP> This works out to be an 
average of $18.25 million per state. Multiplying this figure by 50 
states yields a total of $912.5 million. We recognize that the need for 
funding may not be distributed equally across all the states, and so 
each state may not need $18.25 million to address noxious weeds. On the 
other hand, the $219 million figure is based on very incomplete 
information about the degree of infestation in the responding states, 
and so the required national figure is very likely considerably higher 
than $912.5 million. Furthermore, we know this figure does not address 
what the actual resource need may be, or what the need is for funding 
on federal lands. In short, the $912.5 million estimate of national 
need is very likely a conservative guess; but it is a guess with some 
basis in fact. <SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ The reporting states and the amount they reported are as 
follows: California, $5 million; Hawaii, $16.3 million; Idaho, $39.7 
million; Kansas, $19 million; Montana, $38.3 million; New Mexico, $4.5 
million; Nevada, $1.8 million; Oregon, $12.4 million; South Dakota, 
$24.7 million; Tennessee, $22.7 million; Washington, $24.6 million; and 
Wyoming, $10 million. Additional background information on many of 
these states is set forth in Appendix B.
    \2\ The Conservancy was not able to systematically collect 
information about the independent federal need for weed funding. The 
information for Montana, South Dakota, and Washington includes amounts 
needed to address weed needs on public lands in those states. See 
Appendix B. We understand that the refuge system in the Fish and 
Wildlife Service has a backlog of 300 projects requiring funding of 
approximately $120 million.
---------------------------------------------------------------------------
    In light of this information, the Nature Conservancy asks Congress 
to authorize the expenditure of $300 million through the Harmful 
Nonnative Weed Control Act. An authorization of this amount 
acknowledges the scope and severity of the problem posed by harmful 
nonnative weeds as a matter of policy, even though the amount is still 
far short of what is needed in the country. Should the time come to 
appropriate funds for the legislation, we understand the Appropriations 
Committee may make an amount smaller than $300 million available for 
the bill.
    Appropriations for the bill should not be drawn from existing 
accounts, but rather should be drawn from uncommitted funds. Federal 
land managers need secure sources of funding for managing weeds on 
their own land. Appropriations for this legislation will be available 
for those situations in which weeds on federal land also adversely 
affects neighboring private land, when a weed management entity decides 
to submit a proposal involving exclusively federal land, and of course 
situations in which no federal land is involved.
    Again, The Nature Conservancy thanks the Committee for holding this 
hearing and bringing needed attention to this important problem. We 
urge this Committee to report H.R. 1462 to the floor of the House with 
the minor amendments and authorization level we have identified today. 
We would be pleased to answer any questions you have about our 
testimony.

                               APPENDIX A

                         WEED MANAGEMENT AREAS

The Tri-State Demonstration Weed Management Area, ID/OR/WA
    The Tri-State Weed Management Area (DWMA) includes roughly 250,000 
acres in the Hells Canyon Area of Idaho, Oregon and Washington, with 
most of the acreage in Idaho. Within the DWMA area there is a mix of 
state lands, BLM lands, and National Forest lands with some private 
lands. Grasslands and sagebrush steppe are the predominant vegetation, 
with some mixed coniferous forest at higher elevations. The terrain is 
steep, rugged and inaccessible. The Snake River runs through the middle 
of the DWMA. The Tri-State DWMA got its start as an initiative of the 
Bureau of Land Management, but now includes 16 other federal and state 
land management agencies, county weed programs, private landowners, 
non-profit organizations and the Nez Perce Tribe.
    Treatment of some weed infestations has produced results. For 
example, the group has successfully treated every known occurrence of 
rush skeletonweed, contained spotted knapweed, and contained leafy 
spurge with two of five spurge sites remaining. Additional needs of the 
DWMA include hiring additional seasonal workers to inventory and treat 
additional acreage, release bio-control agents in critical areas, 
engage more private landowners. There is also a need to greatly 
increase the supply of native seed for restoration.

Red Rock Watershed Weed Project, Centennial Valley, MT
    Centennial Valley is a remote area in southwest Montana that 
provides habitat for more than 230 bird species (including trumpeter 
swan, sandhill cranes, and peregrine falcons), mammals such as 
pronghorn, badgers, wolverines, bears, and wolves, and native fish such 
as arctic grayling and westslope cutthroat trout. Small populations of 
invasives occur in the Valley, and large populations of weeds occur 
nearby. The high quality of Centennial Valley habitat is clearly 
threatened.
    In 1999, a coalition of landowners and groups including 
representatives from The Nature Conservancy, Beaverhead County, the 
U.S. Fish and Wildlife Service Partners for Fish and Wildlife program, 
the Red Rock Lakes National Wildlife Refuge, the Bureau of Land 
Management, the Greater Yellowstone Coalition, the Montana Audubon 
Society, and the Rocky Mountain Elk Foundation formed the Red Rock 
Watershed Weed Project (RRWWP). The RRWWP is a joint effort to help 
private landowners of the lower Centennial Valley deal with noxious 
weed control. Twenty-five of the thirty-four landowners within the 
400,000 acre project area, controlling 88% of the land, have agreed to 
participate in the program. Educational brochures and workshops have 
been made available. At least 2500 acres of weeds have been sprayed. An 
increasing amount of the project area has been mapped, and weed 
inventories are being made. The RRWWP is far from finished in its work, 
and sustained vigilance will be required to protect the Valley.

North Fork Cache la Poudre Watershed Cooperative Integrated Weed 
        Management Area, CO
    The North Fork of the Cache la Poudre is rich in biological and 
cultural diversity but is under grave threat from a suite of weeds 
including leafy spurge, Russian and Spotted knapweed, Dalmatian 
toadflax, yellow toadflax, Canada thistle, and cheat grass. In 1998, a 
cooperative weed management area was formed by area landowners and it 
now includes: Phantom Canyon Ranches Landowners Association (PCR LOA), 
Colorado Division of Wildlife, North Poudre Irrigation Company, Glade 
Ranch, Colorado State University's Maxwell Ranch, Colorado Lien (mining 
company), The Nature Conservancy, Abbey of St. Walburga, U.S. Forest 
Service, Colorado State Forest Service and several other private 
landowners including both ranches and ranchettes. This group owns or 
manages approximately 40,000 acres. All other landowners within the 
watershed have been invited to participate. Other partners include 
Western Governors' Association, State Weed Coordinator (Dept. of 
Agriculture), Colorado State University Departments of Fishery and 
Wildlife Biology, Recreation, Natural Resources and Tourism, Sociology, 
Integrated Pest Management, and the Society For Conservation Biology 
student chapter at Colorado State University. Western Governors' 
Association adopted this project as a possible ``pilot'' community-
driven initiative focusing on managing alien species cooperatively.
    Digital mapping has already been carried out for part of the 
project area illustrating the extent of the problem, and helping to set 
management priorities. Selective spraying and mowing of priority 
patches and roadsides on PCR LOA lands has begun to reduce the spread 
of weeds along these corridors. Biological control insects were 
released on leafy spurge patches on PCR LOA land. Some cooperating 
ranchers have changed grazing patterns to intensely graze weedy patches 
and reduce seed production. Prescribed fire is being used to reduce 
density of cheat grass on Conservancy lands. Restoration efforts have 
also begun with several landowners collecting and planting native seed 
into treatment areas. The Conservancy conducted 65 volunteer weed 
management and restoration workdays.
    Critical next steps and resources needed to move this project 
forward include project-wide mapping of weed populations; setting 
priorities and strategies through integrated management plans; training 
in plant identification, best management practices, and safe use of 
herbicides and equipment; applying integrated methods including 
cutting, pulling, spraying, grazing, biocontrol releases, and burning; 
and producing a newsletter to help disseminate information to 
landowners. Many of the weed species are not yet widespread, and can be 
contained and with an intensive 3-year effort.

Berkshire Taconic Landscape, CT/MA/NY
    The Berkshire Taconic Landscape is a 36,000 acre area of the 
Berkshire Taconic range in western Massachusetts and adjacent 
Connecticut and New York. Most of the land in the area is forested and 
owned by private landowners, or the state with some small TNC holdings. 
Mapping indicated that the core 16,000 of the area has few invasive 
weeds now but that weeds have begun to penetrate the area. To combat 
this, TNC and area landowners combined to produce a cooperative project 
(Weed It Now) for expanding the uninvaded core to 24,000 acres.
    The Florida Keys Invasive Exotics Task Force (Task Force) was 
organized in early 1996 to address invasive exotic plants in the 
Florida Keys. These biological pollutants beset the Keys' subtropical 
ecosystem and the flora and fauna supported by it. The Task Force is 
composed of biologists, planners and natural resource managers from 25 
local, state and federal agencies, non-profits and public utilities 
(see list below). Goals of the Task Force include documentation of weed 
populations, prioritization and control of infestations, and public 
education and promotion of interagency cooperation. Members also put 
their muscles where their mouths are while toiling together on invasive 
exotic plant control workdays.
    Region-wide identification and mapping of invasive exotic plant 
populations enabled the group to prioritize control projects. An 
educational brochure, the ``Keys' Invasive Exotic Removal Guide,'' was 
produced and distributed to thousands of interested property owners. 
And a highly visible exotic removal and native species restoration 
demonstration project was carried out to prove the efficiency of the 
interagency cooperative approach on a 50 acre island. Since 1997 the 
West Summerland Key Demonstration Project has involved 780 volunteers 
including Boy and Girl Scouts, AmeriCorps members, Alternative Spring 
Breakers and local residents. As the project nears completion, the 
island is 99% exotics free and native plants are being restored to 
their rightful place.
    The GreenSweep initiative will also strive to address the ``missing 
link'' in exotics control efforts up to this point, the private 
residential landscape. By teaming up with the Monroe County Cooperative 
Extension Service and its highly successful Florida Yards and 
Neighborhoods Program (FYN), The Nature Conservancy and other Task 
Force members will step up public education and outreach.
    Task Force members are confident that the group's comprehensive 
interagency approach and sheer determination, will result in an early 
and lasting victory in the war on invasive exotic plants in the Keys. 
It is estimated that an annual budget of $400,000 would enable the Task 
Force to reach a maintenance level of control in the Keys by the year 
2010. After this time the cost of maintaining control would be 
significantly reduced.

Florida Keys Invasive Exotics Task Force Members
    <bullet> Private:
    Florida Exotic Pest Plant Council, Clean Florida Keys, Inc, Florida 
Keys Environmental Restoration Trust Fund, Key Deer Protection 
Alliance, The Nature Conservancy, City Electric System, Florida Keys 
Electric Cooperative, and Friends and Volunteers of Refuges.
    <bullet> ocal governments:
    City of Key West, Village of Islamorada, Monroe County Division of 
Environmental Resources, Monroe County Cooperative Extension Service, 
Monroe County Grants Department, Monroe County Public Works, and, 
Monroe County Land Authority;

    <bullet> State of Florida:
    Division of Parks and Recreation, Bureau of Invasive Plant 
Management, Division of Coastal and Aquatic Managed Areas, 
Environmental Resources Permitting Office, Florida Fish and Wildlife 
Conservation Commission, Florida Department of Transportation, Florida 
Department of Community Affairs, and, South Florida Water Management 
District.
    <bullet> Federal Government:
    U.S. Fish and Wildlife Service, U.S. Navy.

    [GRAPHIC] [TIFF OMITTED] T3181.002
    
    [GRAPHIC] [TIFF OMITTED] T3181.003
    
    [GRAPHIC] [TIFF OMITTED] T3181.004
    
    [GRAPHIC] [TIFF OMITTED] T3181.005
    
    [GRAPHIC] [TIFF OMITTED] T3181.006
    
    [GRAPHIC] [TIFF OMITTED] T3181.007
    
    [GRAPHIC] [TIFF OMITTED] T3181.008
    
    [GRAPHIC] [TIFF OMITTED] T3181.009
    
    Mr. Hefley. Thank you very much.
    Mr. Carroll?

STATEMENT OF MIKE CARROLL, VICE PRESIDENT OF THE NORTH AMERICAN 
                  WEED MANAGEMENT ASSOCIATION

    Mr. Carroll. Thank you, Mr. Chairman. Mr. Chairman, 
members, it is indeed an honor to come before you and offer 
testimony on behalf of H.R. 1462. My name is Mike Carroll. I am 
the vice president of the North American Weed Management 
Association, and we are a professional organization that is 
dedicated to the control, management, and eradication of 
noxious, invasive plant species in the North American 
hemisphere. We are comprised of over 300 dedicated weed 
management professionals from the United States, Canada and 
Mexico. Our membership ranges from people on the local level, 
who are on the front lines of this battle, to research 
scientists and government administration.
    Many of our members are located in counties throughout our 
great country, where the Federal Government owns 50 percent or 
more of the land. Typically, our membership receives their 
funding to address noxious and harmful vegetation from their 
county tax rolls. Currently, in counties where the Federal 
Government is the majority landowner, there exists a gross 
inequity in funding for this concern. Citizens are taxed for 
the control of noxious and harmful vegetation levied on private 
land, while no funding or very little is available for Federal 
lands.
    I would like to share with you today how House Resolution 
1462 would benefit members of the North American Weed 
Management Association in their efforts to provide protection 
from this nemesis for the citizens of this country. House 
Resolution 1462 would create the very distinct possibility of 
noxious plant eradication within 10-to-15 years in Rocky 
Mountain National Park. Jeff Connors of the National Park 
Service states, ``That is the goal of our exotic plant 
management team, to eradicate 10 of the 32 species within 3 
years, to control an additional eight species, with the longer-
term goal of eradication in 5 years and to contain the 
remaining 14 spaces to isolated areas of the park, with the 
long-term goal of eradication in 10-to-15 years.''
    This proposal has been approved and, if funded, 1462 would 
help. Rocky Mountain National Park would be one of the few 
large National Parks in the lower 48 States that would be 
relatively free of invasive exotic plants. Tim Deitzler, 
agricultural field man from Calgary, Alberta, Canada, and 
president of the North American Weed Management Association, 
informs us, ``The establishment of such a program would have a 
positive impact, even outside the borders of the U.S.'' An 
example is the Spotted Knapweed problem in Glacier Waterton 
National Park, along the Montana-Alberta border. Knapweed is a 
restricted week under Alberta's Weed Control Act, meaning the 
few infestations that occur in Alberta--and when it is found, 
all infestations must be eradicated, not just controlled.
    From our membership in the State of Utah, Craig Ceril 
states, ``Utah is a State that is nearly 70-percent public 
lands. Most of these lands are threatened by exotic and 
invasive plant species. Currently, counties provide the 
majority of the funding for invasive plant control, with some 
landowners and agencies providing limited support. Getting 
landowner participation can be difficult when the nearby public 
lands receive little or no attention because of limited Federal 
funding. The additional funding that would be provided through 
this legislation could be used to organize weed management 
areas that would include both public and private lands.''
    Boundaries could be eliminated and the invasive plant 
problem could be addressed throughout the weed management area. 
This would be a winning situation for everyone involved. Larry 
Walker, president of the Colorado Weed Management Association, 
also supports House Resolution 1462, ``It will offer a way to 
shore up the lines between Federal lands and private lands and 
will allow private landowners that have weeds moving off 
government land to get help in managing those areas.''
    Eric Lane, member of the Colorado State Department of 
Agriculture, State Weed Coordinator, ``Like many other States, 
Colorado and its citizens are engaged to fight and stop the 
spread of harmful, non-native weeds and reduce the significant 
impact these species inflict upon agriculture, environment, 
State and local economies, recreation and public health. In 
Colorado, these impacts easily exceed $100 million annually to 
agriculture alone.''
    From Miami, Adrian Peterson informs us, ``Sublet County, 
Wyoming is probably one of the cleanest counties of invasive 
weed species in the western United States. Eradication of 
noxious, invasive plant species is practiced and realized in 
Sublet County. Some of our major successes have been on public 
lands. This eradication effort is extremely expensive. The fact 
that public land comprises 75 percent of Sublet County means 
the programs are funded by only 25 percent of the landowners. 
This additional resource would enable us to respond rapidly and 
more effectively to newly-discovered infestations.''
    The North American Weed Management Association Board of 
Directors and members support House Resolution 1462. We would 
like to see a change to the bill where a member of the North 
American Weed Management Association be appointed to the 
advisory board, so you could truly get the on-the-ground level 
of comments and concern that we could provide to this effort. 
That is pretty much it. Thank you.
    [The prepared statement of Mr. Carroll follows:]

   Statement of Michael Carroll, Vice President, North American Weed 
                         Management Association

    The North American Weed Management Association is a professional 
organization dedicated to the control; management, and eradication of 
noxious invasive plant species in the North American Hemisphere. We are 
comprised of over three hundred dedicated weed management professionals 
from the United States, Canada, and Mexico Our membership ranges from 
people on the local level who are on the front lines of this battle to 
research scientists and government administration.
    Many of our members are located in counties throughout our great 
country Where the federal government owns fifty percent or more of the 
land. Typically our membership receives their funding to address 
noxious arid harmful vegetation from their county tax roles. Currently, 
in counties where the federal government is the majority landowner, 
there exists a gross inequity in funding for this concern. Citizens are 
taxed for the control of noxious and harmful vegetation levied on 
private land while no funding or very little is available for federal 
lands. These same citizens, the owners of these federal lands, are 
taxed by the federal government for the maintenance and upkeep of these 
lands, but federal funding for harmful and noxious weed control 
remains, sadly, ignored for the most part.
    I would like to share with you how H.R. 1462 would benefit members 
of the North American Weed Management Association in their efforts to 
provide protection froze this nemesis for the citizens of this great 
country.
    H.R. 1462 would create the very distinct possibility of noxious 
plant eradication within 10 to 15 years in Rocky Mountain National 
Park. Jeff Connors of the National Park Service states, ``That it is 
the goal of our Exotic Plant Management Plan to eradicate 10 of the 32 
species within three years, to control an additional 8 species with the 
longer term goal of eradication within five years and to contain the 
remaining 14 species to isolated areas of the park with a long-term 
goal of eradication within 10 to 15 years. This proposal has been 
approved and if funded, Rocky Mountain National Park would be one of 
the few large national parks in the lower 48 states that will be 
relatively free of invasive exotic plants.
    Tim Dietzler, Agricultural Fieldman from Calgary, Alberta, Canada, 
and President of North American Weed Management Association, informs 
us, ``'The establishment of such a program would have a positive impact 
even outside the borders of the US. An example is the spotted knapweed 
problem a in Glacier/Waterton National park along the Montana/Alberta 
border. Knapweed is a restricted weed under Alberta's Weed Control Act, 
meaning few infestations occur in Alberta anal when it is found, all 
infestations must be eradicated (not just controlled). An active weed. 
management program. in this geographic location would help prevent the 
spread into ecologically sensitive areas here in Alberta. Secondly, any 
program undertaken in the U.S. to slow the spread of harmful invasive, 
non-native weeds have repercussions in Canada. Creation of the National 
Invasive Species Council has attracted an attention in Canada, and has 
helped move public opinion (and agencies dealing with invasive plant 
species) to recognize the ecological importance of this issue. I 
applaud consideration of consideration of H.R. 1462.
    From our membership in the state of Utah, Craig Searle states, 
``Utah is a state that is nearly 70% public lands. Most of these lands 
are threatened by exotic invasive plant species. Currently the counties 
provide the majority of the funding for invasive plant control with 
some landowners and agencies providing limited support. Getting 
landowner participation can be difficult when the near by public lands 
receive little or no attention because of limited federal funding. The 
additional ;funding that would be provided through this legislation 
could be used to organize weed management areas that would include both 
public and private lands, boundaries could be eliminated and the 
invasive plant problem could be addressed throughout the weed 
management area. This would be a winning situation for everyone 
involved. One such WMA, exists here in Utah, the Squarrose Knapweed 
Management .Area. This project covers portions of 4 counties and 
includes private, state, and federal lands. The partnerships that have 
been developed have proven to be very effective in controlling invasive 
plants. The most important thing is to find a way to get the funding to 
the local level where the work is done.
    Larry Walker, the President of the Colorado Weed Management 
Association states, H.R. 1462 will offer a way to shore up the lines 
between Federal lands and private lands. It will allow private 
landowners that have weeds moving off government land to get help 
managing those areas. Our county is about 73% public land, so this 
could be an important tool in helping local concerns manage weed 
problems. Since Federal lands are woefully under funded for noxious 
plant management this will assist the local land managers attack 
invasives moving in their direction.
    Eric Lane, NAWMA member and Colorado State Department of 
Agriculture State Weed Coordinator states, ``Like many other states, 
Colorado and its citizens are engaged in a fight to stop the spread of 
harmful, nonnative weeds and reduce the significant negative impacts 
these species inflict upon agriculture, the environment, state and 
local economies, recreation, and public health. In Colorado, these 
impacts easily exceed $100 million annually to agriculture alone.
    While our citizens are committed to being good stewards of our 
public and private lands, the cost of developing and implementing 
effective weed management strategies is not small.. In fact, research 
suggests that the cost of managing harmful nonnative weeds is on par 
with the cost of annual wildfire fighting efforts. However, the nation 
invests comparatively little to assist its citizens and local 
governments in the war on weeds. H.R. 1462 will help to address this 
inequity by providing for a nationwide competitive grant-making program 
to support cooperative weed management efforts and leverage additional 
funds tom a variety of public and private sources to enhance such 
efforts. Colorado and several other western states including California 
and Montana have already initiated similar, albeit very limited, 
funding programs which have helped local communities to launch 
effective weed management efforts but have not been able to meet the 
demand and need demonstrated throughout these states. I believe that 
additional funding made available through H.R. 1462 would help to 
better meet the need expressed by our communities as well as 
communities throughout the nation.
    From Wyoming, Adrianne Peterson informs us, ``Sublette County, 
Wyoming is probably one of the cleanest counties in the western United 
States. Eradication of noxious invasive plant species is practiced and 
realized in Sublette County. Some of our major successes have been on 
public lands. This eradication effort is extremely expensive. The fact 
that public land comprises seventy five percent of Sublette County 
means programs are funded by only twenty five percent of the 
landowners. This additional resource would enable us to respond rapidly 
and more effectively to newly discovered infestations. Hopefully this 
would strengthen the relationship between producers and public land 
managers.
    The North American Weed Management Board of Directors and members 
feel that H.R. 1462 would equalize funding opportunities between highly 
populated areas and remotely urban areas, which are both under siege. 
Each is unique in the obstacles they face to commence dais effort, but 
lack of funding is the common denominator that restricts active 
environmentalists such as our members and other state, local and 
private interests and keeps these efforts grounded.
    Infestations of noxious and harmful vegetation have had a long time 
to become established throughout our country. One of the major forces 
we need to enlist in our struggle to conquer this scourge is the talent 
and dedication of our fixture generations. We can only accomplish this 
by education. H.R. 1462 will enable this to become a major component 
in. this battle. It Will. complement and enhance programs already in 
existence and facilitate the creation of new education programs- Such 
programs currently inn existence are woefully under funded currently. 
Our members throughout the country, working with limited resources, 
have some excellent programs. One such program in Nebraska teaches 
children the dangers of noxious and harmful vegetation by utilizing 
global positioning techniques performed by these students to map and 
inventory invasive plant populations. Wyoming is involved in this 
education effort by teaching materials supplied to elementary 
classrooms. There are many other education programs worth mentioning, 
but for a lack of funding, most will never realize their full 
potential.
    There are chore invasive plant infestations than all the members of 
congress and vegetation management professionals will be able to battle 
alone. This bill will enable these professionals the ability to 
assemble a wide variety of very concerned citizens, especially private 
landowners to turn the tide of this effort frown local skirmishes to 
full-fledged battle of these invaders.
    H.R. 1462 will help states and local authorities facilitate the 
implementation of the North American Weed Management Associations Weed 
Free Forage Standards. Perhaps the single most important program to 
date to stop the spread and transport of the seeds of these invaders.
    This resolution will put this great country on par with other 
countries such as Australia, by providing the means for halting the 
spread of these invasives , treatment of infestations that for too long 
have been ignored, of which many, perhaps the majority are on public 
land. The citizen owners of this land, desperately need this 
opportunity.
    While current efforts to manage known infestation of invasives 
would benefit, it is the newly discovered infestations that H.R. 1462 
would benefit greatest. This funding would make possible the 
realization of the Early Detection and Rapid Response program currently 
being designed by the Federal Interagency for the Control and 
Management of Noxious and Exotic weeds committee.
    As I've traveled often to our nations Capital, I've had the 
opportunity to see the administration of various federal agencies 
recognition of this plague increase. I've seen the efforts and have 
been quoted the numbers of funding dollars committed for this cause. 
Dollars, that by the hard work of these dedicated professionals, have 
increased. Awareness of this issue in Washington, is at an all time 
high.
    When I travel back home and deal with the local and regional 
offices of these agencies, they are unaware of these increases in 
funding. Our membership in Idaho confirms this concerning the Crater 
Moon and City of Rocks National monuments, where efforts to partner 
with these agencies to control noxious vegetation have faded for lack 
of funding available to these federal interests. Typically these movies 
are lumped into conservation programs and may or may not be utilized in 
this effort. These dedicated professionals have long been aware of the 
dangers posed by these invaders, and have been some of the strongest 
allies in the effort to stem this tide, but have been hamstrung by the 
lack of definitive funding. H.R. 1462 will allow these federal agencies 
to commit and form partnerships, with definitive, targeted dollars.
    The threat of invasive plants to the United States of America has 
truly been the number one environmental pollution threat of the 20th 
century and will continue to be throughout the 21st century.
    In it's current state, the effort to combat this problem, which is 
often referred to as wildfire in slow motion, is analogues to that 
extremely dangerous period in this country's history immediately 
preceding our great nations invasion of Normandy on D-Day in World War 
Il.
    The resistance fighters are in place and have been exerting great 
effort with very limited resources, trying to hold these invaders at 
bay. They are extremely skilled professionals who are creative in 
stretching their resources to the limit, prioritizing the battles that 
can be won with these limited resources. They fight this relentless 
fight with one eye trained to the shore, hoping to see their Allies 
landing on the beach with the desperately needed resources to achieve 
victory.
    This battle will be won in tinge, with the passage of H.R. 1462 and 
similar bills. If passage of this resolution fails, the fight will 
continue. When the citizen owners of our public lands can visually see 
that these invaders have conquered an ecosystem, as is the case in the 
State of Hawaii, where only two percent of the native plant population 
remains, they will again come before you and ask why our government did 
not. act. In this war, an ounce of prevention, truly is, worth a pound 
of cure.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Dr. Riley?

  STATEMENT OF TERRY RILEY, Ph.D., DIRECTOR OF CONSERVATION, 
                 WILDLIFE MANAGEMENT INSTITUTE

    Mr. Riley. Thank you very much, Mr. Chairman, for inviting 
the Wildlife Management Institute to speak today on this 
extremely important issue. The Wildlife Management Institute 
was formed in 1911, and we are staffed by scientists and 
managers that have extensive experience in wildlife and natural 
resource management on Federal and private land. Our main goal 
is the conservation, management, and the wise use of wildlife 
and other natural resources in North America. We are concerned 
about the effects of noxious and invasive, non-native weeds on 
wildlife habitat throughout the entire country, not just the 
East or the West or aquatic species or upland species. This is 
an extremely important issue to WMI and to the wildlife species 
we are concerned about.
    There are estimates that some people have put forth that 
say that noxious weeds are spreading at a rate of about 5,000-
to-10,000 acres a day in this country. That is having a 
devastating effect on ranchers and farmers and Federal land 
managers and State land managers, and counties. It is 
everywhere and it is happening very, very quickly. As has been 
said by previous witnesses, if we do not do something now, the 
explosion will be shortly upon us. In fact, invasive plant 
species impact many different wildlife, particularly those that 
nest and breed on the ground. Many grassland birds are losing 
important habitats, because the habitat in places where they 
hide their nests and rear their young and feed and sleep at 
night are all being devastated by these invasive species.
    Long-term funding is needed. This cannot be addressed in a 
1-year, big-shot-of-money, with hope that the problem will go 
away. It is not going to go away. The problem is here to stay. 
At best, we may be able to, at some point of time in the 
future, get it to the point where we can stop most of the 
spreading, if we put enough resources to it now. That is going 
to require a coordinated effort by all participants, all 
stakeholders, county weed boards, State wildlife agencies, 
State Departments of Agriculture, the Federal Land Management 
Agencies, and every individual out there that is impacted by 
these invasive species.
    We recommend, also, that whatever plan or program is 
developed and supported by any legislation that is developed, 
that it take a watershed approach. My experience with 
controlling noxious weeds on national forests, as a certified 
applicator of pesticides in South Dakota, particularly, 
required us to start at the top of a watershed and work down. 
If you do not do that, you end up with the weeds moving all 
around on you, and it takes an organized approach to actually 
attack this problem, and you cannot just hope to throw it out 
all over the landscape, and the control is going to land in the 
right places.
    Federal Land Management Agency funding is a very big 
concern for us with respect to noxious weeds and invasive 
weeds. We consistently request more funding and a more-
coordinated approach to controlling noxious weeds on Federal 
land, and I think you have heard from previous witnesses that 
we really have a serious problem here, and the Federal agencies 
have to be an active participant in whatever plan and program 
is developed from this or other pieces of legislation involving 
invasive weeds.
    We are concerned about coordination, particularly between 
Department of Agriculture and Department of Interior. Both 
departments have their own programs, but there are times they 
do not coordinate very well. We hope anything that comes out of 
H.R. 1462 does not somehow pull away existing funding that is 
out there right now for invasive species, but that it also 
tries to bond those two agencies, those two departments, 
together, and all their various agencies, so they can work and 
do coordinated projects.
    We are also concerned that H.R. 1462 may compete with other 
existing programs that are working very, very well out there 
right now. Dr. Tate mentioned in his testimony the National 
Fish and Wildlife Foundation's Pulling Together initiative. 
This program is doing exactly what the legislation would 
propose, and it is doing it very effectively. Pulling together 
partners from local communities, from State and Federal 
agencies and county weed boards, and a variety of other 
entities, and we hope H.R. 1462 would not detract from all the 
effort, of pulling together and all the Federal dollars from 
six different agencies that are leveraged for this program. 
Thank you.
    [The prepared statement of Mr. Riley follows:]

  Statement of Dr. Terry Z. Riley, Director of Conservation, Wildlife 
                          Management Institute

Introduction
    Mr. Chairman, I am Terry Z. Riley, Director of Conservation for the 
Wildlife Management Institute. The Wildlife Management Institute (WMI), 
established in 1911, is staffed by professional wildlife scientists and 
managers. Its purpose is to promote the restoration and improved 
management of wildlife and other natural resources in North America.
    WMI commends the Committee for initiating this dialog. The 
seriousness of the invasive weeds issue cannot be overstated, and we 
urge the Committee to lay the groundwork today that will lead to a plan 
for long-term control of invasive weeds across the US.
    Thank you for giving us the opportunity to offer our insights. The 
debate that will occur on invasive weeds is not an either-or 
proposition. The economic viability of farms and ranches is dependent 
on a national, coordinated effort to control the spread of weeds. 
Production of wildlife, agricultural crops and livestock already have 
been compromised, and farmers and ranchers are losing billions of 
dollars each year to weeds. Credible evidence exists that the cost of 
invasive weeds on our Nation's economy is at least $130 billion per 
year.
    We are deeply concerned about the accelerating spread of invasive 
exotic plants, or ``weeds,'' on public and private land. Some estimates 
indicate that exotic invasive plants are overtaking our Nation's native 
vegetation at a rate of about 10,000 acres per day. Infestations are 
reducing the productivity and biodiversity of our Nation's natural 
resources at a dramatic rate. For example, research shows that weed 
populations frequently reduce livestock carrying capacity between 35 
and 90 percent. These infestations also are increasing the predicament 
for threatened and endangered species and the likelihood that 
additional species will warrant listing under the Endangered Species 
Act. Furthermore, weeds increase erosion, reduce water quality and 
quantity and reduce natural regeneration of our Nation's prairies, 
shrublands and forests.
    These non-native invasive plants arrive here from other countries 
without the natural insects, diseases and pathogens that kept them in 
balance with other plants in their country of origin. Consequently, 
these plants aggressively out-compete our native wildland plant 
communities. The following examples of increased weed populations on 
private, state, and federal wildlands illustrate the devastation 
underway: In Montana spotted knapweed increased from a few plants in 
1920 to 5 million acres today; in Idaho rush skeleton weed from a few 
plants in 1954 to 4 million acres today; in Northern California yellow 
starthistle from 1 million acres in 1981 to about 15 million acres 
today. Since these weed populations increase at about 14% per year, 
they continue to increase - at an increasing rate. Consequently, 
thousands of watersheds on public and private land are undergoing the 
greatest permanent degradation in their recorded history--with wildlife 
habitat and livestock forage suffering the greatest losses.
    Local cooperative approaches offer the best opportunity to prevent 
and control weeds within a specific watershed. In a few states, Weed 
Cooperatives or County Weed Boards are bringing land owners and 
operators, utility companies, county and state road departments, state 
fish and wildlife agencies, federal land management agencies, 
businesses, nonprofit conservation organizations and public land users 
together to attack this insidious plague of weeds. Federal funds 
through the National Fish and Wildlife Foundation's ``Pulling Together 
Initiative'' already are providing these local cooperatives with the 
funds they need to develop and implement long-term plans to control 
invasive weeds within local watersheds. One-hundred and eighty weed 
control cooperatives have been supported by the ``Pulling Together 
Initiative'' since 1998, however, another 247 weed cooperatives 
submitted projects proposals to the National Fish and Wildlife 
Foundation that went unfunded because of insufficient funds. A wide 
array of partners associated with these projects have contributed 
millions of dollars to these cooperative weed-control ventures, 
leveraging 1.8 non-federal dollars for each federal dollar committed to 
the program. The Wildlife Management Institute has been the grantee on 
one of these ``Pulling Together'' projects since 1998 that brought 
together 14 federal, state, county and private partners to collectively 
control the spread of purple loosestrife up the Missouri River and its 
tributaries in Nebraska and South Dakota. These diverse groups come 
together enthusiastically to fight a common enemy. Unfortunately, in 
most areas and in most watersheds, these cooperative efforts to control 
and eradicate weeds are not yet in place, or have not been able to 
secure funding.
    The technology is available to cooperatively bring the spread of 
invasive weeds down over the long term to a level approximating ``no 
net increase''; along with making good progress at controlling and 
restoring some large infestations. However, the cost to apply this 
technology will not come cheaply. Without substantial federal funding 
over several years that can be used to leverage state and private 
funds, many more vast areas will become permanently degraded as these 
invasive weeds spread across our landscape.
    Only now are we beginning to see the danger that lies ahead. There 
is great economic efficiency in increasing investments now to keep 
relatively healthy watersheds from becoming severely infested by weeds. 
Enormous increases in investments will be needed to restore land once 
it is seriously infested. With prompt action now these disasters can 
economically and efficiently be avoided.
    Last year, our nation experienced some of the most devastating 
wildfires we have seen in some time; burning over 6 million acres and 
destroying immense amounts of public and private property. While most 
of those fires were ignited naturally by lighting strikes, the fuels 
that carried those fires often were invasive weeds, such as cheatgrass, 
that have invaded millions of acres of our western rangelands.
    Congress immediately responded to these disasters by allocating 
nearly 2 billion dollars in Fiscal Year 2001 to aggressively deal with 
the wildfire hazards across the country on public and private land. 
While exotic invasive weeds do not destroy homes like catastrophic 
wildfires did last year, and thus do not receive the interest of the 
Press, they are doing just as much if not more damage to the lives and 
livelihood of farmers and ranchers over a much larger area than 
wildfires.
    House Bill 1462, the ``Harmful Nonnative Weed Control Act of 2001'' 
is a good first step at addressing the invasive weeds, but we believe 
it does not go far enough. Our concerns related to HR 1462 include:
    <bullet> Sufficient and long-term funding on public and private 
land;
    <bullet>  watershed-based approach to controlling weeds;
    <bullet> Coordinated weed control projects on public and private 
lands;
    <bullet> Assurances that all nonnative invasive weeds are 
addressed;
    <bullet> Requirements to leverage non-federal funds;
    <bullet> Opportunities to fund multi state weed control projects; 
and
    <bullet> The future of the NFWF's Pulling Together Initiative.
Recommendation
    We strongly urge the Committee to address the issue of annual and 
long-term funding needed to control invasive nonnative weeds on our 
Nation's public and private lands. Local cooperative efforts to control 
invasive nonnative weeds must have some assurances that funding will be 
available to help plan and implement their programs. Federal land 
management agencies also must have the funds to control weeds on our 
public lands, and there must be methods developed to ensure 
coordination between weed control efforts on public and adjacent 
private lands. We strongly urge the Committee to allocate at least 
$100,000,000 per year for nonnative invasive weed control projects on 
private land, and to commit at least 5 years of funding.
    We also urge the Committee to allocate sufficient funds to the 
federal land management agencies to control noxious weeds on public 
lands. For example, the Bureau of Land Management needs at least $15 
million in Fiscal Year 2002 to implement their weed control program, 
and they will need at least $30 million per year once the program is 
fully implemented. Congress provided $8 million in Fiscal Year 2001 to 
the USDA Forest Service to control invasive weeds on 150,000 acres, but 
already there are over 8 million acres of the agencies' 192 million 
acres that are infested by nonnative invasive weeds. Much more funding 
is needed to stop the spread of weeds on federal land. If they are not 
stopped, the consequences will be extremely expensive and tragic.
    We are concerned that H.R. 1462 will reduce funding for other 
natural resource programs within the Department of the Interior (DOI). 
Since funding for H.R. 1462 has not been clearly identified in the text 
of the bill (specifically referred to as Section 11 in the bill), we 
believe H.R. 1462 will require the Secretary of the Interior to cut 
funding for other programs in order to meet the requirements in H.R. 
1462. We urge the Committee to clearly identify the funding necessary 
to implement an effective weed control program, but not at the cost of 
other natural resource programs.
    Most successful efforts to control weeds have been those that 
address the problem within an entire watershed. We recommend that the 
Committee require that all programs and projects using federal dollars 
to control weeds must be based on a watershed planning and 
implementation approach.
    There are many nonnative invasive weed control programs already in 
existence on public and private land. However, many of these programs 
do not bring together all private and public agencies, organizations 
and stakeholders to mount a coordinated effort to control weeds. 
Government funding for control of invasive weeds on private land 
traditionally has come from the various federal and state departments 
of agriculture. We are concerned that federal funding through the 
Secretary of Interior might disrupt these traditional cooperative 
ventures. We recommend that the Secretaries of Interior and Agriculture 
are equally involved in the administration of any nonnative invasive 
weed control program on public and private lands.
    We are concerned that efforts to control invasive weeds might only 
focus on the widespread infestations in the western states. Our 
Nation's waterways often provide the avenues by which invasive weeds 
spread throughout a watershed, and many of our waterways (rivers, 
streams, lakes and wetlands) are completely choked and dysfunctional 
because of weed infestations. We urge the Committee to address all 
nonnative invasive weeds in any legislation they approve, including 
those weeds in waterways, wetlands, farmlands, pasture and haylands and 
our western rangelands.
    Almost all local agencies, organizations and stakeholders are 
concerned about invasive weeds, and most are eager to commit their own 
time and resources to provide control. The National Fish and Wildlife 
Foundation's Pulling Together Initiative demonstrated that it can 
leverage millions of dollars from a wide array of private and public 
partners to control weeds. We recommend that the Committee use the 
proven model for leveraging private resources for weed control that has 
been successfully employed by the NFWF's Pulling Together Initiative.
    Often nonnative weeds infestations cross boundaries created between 
administrative, political and state entities. We are concerned that 
H.R. 1462 would not accommodate nor encourage cooperative efforts 
across all of these boundaries, such as a multi-state weed control 
project. We recommend that the Committee provide funding to a broad 
array of cooperative ventures to control invasive weeds, including 
multi-state projects.
    Finally, we are concerned that H.R. 1462 will reduce or eliminate 
much of the federal funds available to the National Fish and Wildlife 
Foundation's (NFWF) Pulling Together Initiative. Six federal agencies 
contribute substantial funds each year to the cooperative invasive weed 
control partnerships that have been formed under the Pulling Together 
Initiative. Many of these existing partnership, including the purple 
loosestrife control project that WMI administers in Nebraska and South 
Dakota, would be affected severely if the Secretary of the Interior 
withdrew the federal commitment to these cooperative weed control 
ventures. We urge the Committee to support the existing and future 
cooperative weed control partnerships in the NFWF's Pulling Together 
Initiative (PTI). The PTI has a proven record of leveraging millions of 
private dollars to match federal dollars in cooperatively controlling 
invasive weeds on private and public lands. We would be very 
disappointed to see the effectiveness of the PTI program diminished or 
destroyed by a new duplicative program that draws upon the same 
partners and the same private and public funds.
Concluding Remarks
    We thank the Chairman and members of the Committee for inviting the 
Wildlife Management Institute to testify on H.R. 1462. Nonnative weeds 
are costing our nation's economy more that $130 billion per year, and 
we are very concerned that our wildlife and other natural resources 
will suffer irreparable harm if we do not act now. We fully support a 
broad array of active and cooperative nonnative invasive weed control 
ventures on public and private lands. We believe significant and long-
term funding is needed to assist these partnerships in controlling 
weeds within all of our Nation's watersheds. Funding for invasive weed 
control on our public lands is woefully inadequate to stop the spread 
of these insidious pests, but we would not support funding for any new 
weed control program that would be at the expense of other federal 
natural resource programs or existing cooperative weed control 
partnerships, such as our purple loosestrife project in Nebraska and 
South Dakota that is funded through the highly successful Pulling 
Together Initiative. Mr. Chairman, we respectfully request that our 
written and oral comments presented here today be entered into the 
permanent written record of this hearing.
                                 ______
                                 
    Mr. Hefley. Thank you, Dr. Riley. Am I given to understand 
correctly that, by and large, these weeds that we are talking 
about are not consumed by either livestock or wildlife? Mr. 
Skinner could probably speak to the livestock part of it.
    Mr. Skinner. In some cases, you are right. Of course, some 
of the noxious weeds--and you have got to be careful when you 
use the word ``noxious.'' Some of the noxious weeds, invasive 
would be a better word, because noxious weeds do not 
necessarily fit the category. But they talked about using goats 
earlier to control these, sometimes sheep will control them. 
Sometimes cattle or horses will control these weeds. That 
doesn't necessarily totally address the problem in all cases, 
because sometimes those invasive species are just totally 
taking over the habitat for our wildlife, or are destroying our 
watersheds. They are destroying our croplands.
    I cannot possibly emphasize the importance, and I am so 
frustrated. I guess that is why I am here, as a person on the 
ground, who sees the magnitude of what is hitting us. I do not 
think people can fathom what is coming our way. It is almost 
overwhelming to me.
    Mr. Riley. From the wildlife perspective, there are some 
species out there that can have an impact on invasive weeds, 
but landowners probably would not want the densities of those 
species, such as pronghorn antelope, necessary to do some 
damage to these invasive species. It could take thousands and 
thousands of them. As an example, just looking at goats, as 
Senator Craig had mentioned earlier, in Idaho, they have been 
putting as many as 5,000 goats into one pasture to try to 
control the invasive species over a fairly short period of 
time. It is quite an impressive sight to see 5,000 goats 
concentrated in one pasture. Well, that has an impact in 
itself, just putting that many animals in one place, and you 
can just imagine most ranchers out West thinking, ``Okay, well, 
I'd like to have 5,000 animals concentrated in my pasture,'' 
which might be very impractical. But you cannot get the 
densities of wildlife up to the point that they could have an 
impact on invasive species. So it would be difficult.
    Mr. Beck. Whether livestock or wildlife will consume weeds 
is, at least in my experience, highly dependent upon the weed 
species. A plant like Leafy Spurge is not consumed by horses or 
cattle, but is consumed by sheep and goats, and I have not seen 
too many wildlife species to know whether they really consume 
it or not. But probably just as importantly, even plants like 
Knapweeds tend to be very palatable at their early stages of 
growth during the spring of the year, but once they flower, 
very few--animals, including grasshoppers, will refuse to eat 
them.
    So it is very dependent upon weed species, the situation. 
Certainly, I think more times than not, weeds are detrimental 
to wildlife and livestock.
    Mr. Randall. I would just like to add to that, that we do 
see declines in the numbers of species and in the diversity of 
species, and that is what we are focused on. So we clearly see, 
across the board with most of these weeds, that we lost at 
least some of the species we are interested in, plants and 
animals.
    Mr. Hefley. Thank you. Further questions, Committee?
    Mr. Otter. Thank you, Mr. Chairman. Yes, I have a few 
questions, and it is unfortunate that one the victims of the 
noxious weed invasion that we have not talked about, and I use 
that term, noxious weeds, instead of just invasive weeds, 
because having been the Lieutenant Governor of the State of 
Idaho for 14 years and led a lot of international trade 
delegations, I was surprised, in fact, amazed at how many 
countries would not let some of our products into their 
countries because of an infestation of a problem with some of 
our seed, and Idaho is a big seed grower.
    They actually boycotted a lot of our products from Idaho, 
because of noxious weeds, for instance, in our potato seed 
crop, which is big in Idaho, because of nematodes and some of 
the noxious weeds--not nematodes--were the vectors for. They 
would not allow us to ship those practically any place in the 
world for quite a period of time. Mr. Randall, I was impressed 
with your testimony and also with your suggestion relative to 
the inclusion of water plants and particularly Purple Loose 
Strife. We have a tendency to think of invasive weeds as 
invading land and pushing out habitat, and I am familiar, 
especially along the reaches of the Lower Boise River, that 
runs through the Treasure Valley in Idaho, where it is being 
actually choked off by Purple Loose Strife.
    The only known chemical that we can use, the only certified 
chemical, I think, is Rodeo, that we can use over water. But we 
have been working and found some bugs that will eat the 
reproductive part of the Purple Loose Strife plants, and of 
course we are concerned now, if we turned the bugs lose and we 
run out of Purple Loose Strife, what are we going to get to eat 
the bugs, or what else are they going to want to eat?
    False Indigo is another one that is very invasive on water 
bodies, and interestingly enough, both Purple Loose Strife and 
False Indigo are transmitted or relocated by the very water 
that they are invading. I was told that one plant can release 
as many as one million seeds of the Purple Loose Strife, and 
where that ends up down the river and in whose backyard. Yet, 
interestingly enough, we have government rules and regulations 
on the eradication of those, even on private lands that are 
adjacent to what they call navigable waters of the United 
States Government.
    I would be interested, especially from the Nature 
Conservancy, because I know you folks probably do a better job 
than any of the other conservation groups that I am aware of, 
of managing your lands for beneficial use and multiple use, at 
least you do in Idaho. I do not know about the other projects 
you have. But I would be interested if we could put a dimension 
in here that included the eradication of weeds on private 
lands, as well, and projects that would encourage that.
    Mr. Randall. Yes, as the bill is written now, it definitely 
encourages the inclusion of private landowners in these 
cooperative weed management entities.
    Mr. Otter. Under that process, do you see a permit would be 
required?
    Mr. Randall. For use of herbicides on private-entity lands?
    Mr. Otter. Yes.
    Mr. Randall. I believe that is going to be regulated by the 
States themselves. So, as far as I understand it, this bill 
does not address that directly. The examples that I can give 
you are where I have been involved as an adviser-consultant, if 
you will, on cooperative weed management areas that the 
conservancy is a partner in, and we are a private landowner, 
and we have been directly involved in cooperative weed 
management.
    Mr. Otter. Do you pay taxes on that land?
    Mr. Randall. Yes.
    Mr. Otter. How much taxes do you pay per acre, for weed 
control, to the county?
    Mr. Randall. Since we are all across the country, it is all 
over the board, and I do not know. I could get that 
information.
    Mr. Otter. That would be interesting. I would like to have 
that information.
    Mr. Randall. I will say that it will be all over the board, 
because we have 1,300 preserves and they are all across the 
country.
    Mr. Otter. Mr. Carroll, you are going to have to help me 
out with part of this, because I am not aware of how the other 
States are, but in Idaho, we have 44 counties. So, 
subsequently, we have 44 weed control districts, and then we 
have some spread across the counties. In my home county of Ada 
County, if I have got a noxious weed patch that the county weed 
supervisors happen to see, and they give me warning and I do 
not eradicate those weeds, they can then come in and take 
defensive action on those weeds to eradicate them and then send 
me a bill, and if i do not pay the bill, they can actually put 
a lien against my land.
    I think maybe you were in the audience when I asked Senator 
Craig if this was the direction we were going here. But it 
seems to me that responsible land ownership, no matter who owns 
the land, requires that you have a peaceful existence with your 
neighbor, and it seems to me that the Federal Government has 
not been a peaceful neighbor. Am I right or wrong there?
    Mr. Carroll. I believe you are right. Typically, in the 
West, that basically the way the laws are set up, that if 
mitigation is not completed by the landowner, then they have 
the ability to go in and make a treatment and lien the 
property. I am also a local county weed manager. One of the 
problems we run into, you cannot get blood out of a turnip, so 
if you go into a portion of Federal land that pays no taxes, I 
have no way to lien their taxes.
    Mr. Otter. But it is not just the taxes, sir, it is my 
property. If I went to sell that property, the results of the 
income that come off of that property, actually, the county can 
come in and attach part of that.
    Mr. Carroll. That is true.
    Mr. Otter. Or any income that comes off that property, that 
the county knows about.
    Mr. Carroll. I think that might vary from State to State.
    Mr. Otter. Well, in Idaho, I can tell you on the private 
ground, because about 65 percent of the land mass of the State 
of Idaho is Federal ground. So the larger the neighbor, the 
larger the problem.
    Mr. Carroll. Exactly.
    Mr. Otter. Whether it is with Mr. Skinner's industry in the 
cattle business--and I have been in the cattle business, and I 
have gone through the larkspur kills in the early spring, 
because we were not allowed, in many cases, to eradicate the 
flower, and, of course, that is the first thing that turns 
green and when you turn the cattle out, that is the first thing 
they are going to eat, and it kills them.
    So we have got many problems as far as I am concerned. This 
bill is going in the right direction, but it is not near far 
enough, because I think if it is a public policy, and it is 
necessary for the government to say noxious weeds are a 
problem, and so therefore we need teeth in the law in order to 
be able to control those invasive weeds, that teeth in the law 
should apply no matter whom the property owner is. So I would 
hope that this is a beginning and not the end of where we need 
to go with the eradication.
    Mr. Carroll. Perhaps I could clarify a little bit; when 
Senator Craig made the statement that counties or States are 
not able to do what they term is an enforcement action on 
Federal land, that is not the case in Colorado. In Colorado, we 
do have the authority to go and enforce on Federally-owned 
ground. I do not believe anybody has ever tried it and I am not 
quite sure how it would end up, but the main thing is you are 
right. This bill is a good start. It points us in the right 
direction. It allows the formation of partnerships, and that is 
probably key.
    Mr. Otter. I am interested in your right to enforce the 
Federal Government on their land, because under the equal 
standings doctrine, it seems to me if Colorado has that 
authority, every State should have that authority or does have 
that authority.
    Mr. Hefley. Colorado has particularly good representation 
in Congress, is the reason they have that authority.
    [Laughter.]
    Mr. Carroll. That is exactly right.
    Mr. Otter. Actually, beginning this year, so does Idaho, 
but I am only a 160-day wonder here, Joe. Give me a little 
time. I would be interested in that authority and the source of 
that authority, because if that is truly the case and if we can 
enforce that law--it is the right thing to do--then I think we 
certainly have been missing the bet, because we ought to be 
able to do the same thing in the Oregon Breaks. We ought to be 
able to do the same thing everywhere.
    Mr. Carroll. I think Dr. Beck be able to talk a little bit 
about that. He has been around forever, so he probably wrote 
the law.
    Mr. Beck. I think the legislation that Mike is referring to 
is out of the Plant Protection Act, and I think it is Section 
2814 out of the old Federal Noxious Weed Act, is what he is 
referring to, and that portion of the law requires Federal 
agencies to manage weeds in cooperation with State and local 
government.
    Mr. Otter. What is the penalty if they do not?
    Mr. Beck. There is no penalty in there, that I am aware of.
    Mr. Otter. I want to say that is the problem, and that is 
the problem that I see in this bill. If Butch Otter does not 
manage his land in a peaceful way to his neighbors, there is a 
penalty, and people sitting in this Congress and probably in 
this room at one time or another said we have to have teeth in 
the law to make people obey it, yet we never have teeth in the 
law when we want to make our big neighbor, the Federal 
Government, obey the law. I understand, in many ways, how 
difficult that is for people to understand. But I also feel 
what is good for the citizen is good for every citizen; what is 
good for the landowner, the private landowner, is good for 
every landowner.
    I am going to continue to pursue that course during my time 
in Congress. Thank you very much, Mr. Chairman.
    Mr. Hefley. I hope you do, Congressman. I always feel it is 
necessary to apologize that we do not have more Committee 
members here, and many of you have come a long way to testify. 
I do not want you to think that it is not important for you to 
be here. You can help shape this legislation, and I think the 
fact that there are not more members here is the fact that this 
is not a very controversial issue, for which I am thankful. I 
do not usually introduce legislation that turns out to be 
supported by both the departments of the government and the 
environmental community and everybody concerned. So I am very 
pleased that there is strong support here.
    We would like any specific recommendations, in addition to 
what you have testified to, that you would have to make this a 
better bill, a more effective piece of legislation. So we would 
welcome that and ask you to submit that to us. Let me ask you, 
Mr. Skinner, before we close, do you ranch near Bob Smith?
    Mr. Skinner. About 130 miles from where Bob Smith used to 
ranch. He ranched to the west. We actually even leased some of 
his permit.
    Mr. Hefley. I see. Thank you very much for being here. We 
appreciate your testimony.
    The Committee stands adjourned.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]

    [The following additional information was submitted for the 
record:]

        1. Statement of the American Farm Bureau Federation;
        2. Letter from the Colorado Department of Agriculture;
        3. Letter from the Florida Farm Bureau Federation;
        4. Letter from the Montana Department of Agriculture;
        5. Letter from the Weed Science Society of America; and
        6. Letter from the Wyoming Department of Agriculture.

            Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation is the largest general farm 
organization in the United States, representing the interests of more 
than five million member families in all 50 states and Puerto Rico. Our 
members produce virtually every commodity produced in the United 
States. We submit this statement for the hearing record.
    Harmful noxious weeds pose an extremely serious problem for 
agriculture. It was estimated in 1994 the impacts from noxious weeds 
were over $13 billion per year. A Cornell University study completed 
last year estimated invasive plants and animals cost the American 
people $137 billion every year.
    A 1996 Bureau of Land Management report estimates that invasive 
plants infest over 100 million acres across the United States. It 
mentions that every year they spread across another three million 
acres--an area twice the size of Delaware. It says that up to 4,600 
acres of additional federal lands in the Western United States are 
negatively impacted by harmful plants per day.
    Harmful noxious weeds also cause significant environmental damage. 
These plants rapidly spread over large land areas, and there are no 
natural barriers to prevent their spread. One study estimates that 
invasive plants and animals have contributed to 35 to 46 percent of all 
species being listed under the Endangered Species Act.
    Harmful plants also may dramatically alter the ecology of an area. 
For example, cheatgrass in the western United States has increased fire 
risks twenty fold.
    The list of harmful plants and the damage they cause increases 
every year. It is a national problem that causes significant damage. 
And needs to be addressed at the national level.
    Prevention and control of harmful weeds are very important to Farm 
Bureau and our members. Farm Bureau supports an aggressive effort at 
both the federal and state levels to control or eradicate these 
devastating plant species. The recently released management plan 
entitled ``Meeting the Invasive Species Challenge'' indicates a 
commitment of the many federal agencies having some responsibilities on 
this issue to coordinate their efforts to more effectively combat these 
species.
    H.R. 1462 recognizes that efficient use of funds and effective 
control of noxious weeds requires coordination of all levels of 
government. The bill would allocate federal funds to the states through 
recommendations from a federal advisory committee, and the states would 
distribute the funds to local entities upon selection of local 
projects. The federal share would be up to 50 percent of the total cost 
of a project.
    We believe the process contained in the bill provides proper 
coordination among the different levels of government. States and local 
entities should take a leadership role in controlling harmful weeds in 
their area. The role of the federal government should be to recognize 
that control work should be done at the state level, and to coordinate 
and support these efforts. H.R. 1462 incorporates these roles.
    While we generally support the purpose of the bill and the 
procedures employed in the bill to carry out that purpose, we offer a 
few suggestions for improving the bill.
    The plants should be referred to as ``noxious weeds'' instead of 
``nonnative weeds.'' The term ``noxious weeds'' has an established 
meaning and there is a list of noxious weeds which the agencies can 
refer to. ``Nonnative weeds'' has no such established meaning. Calling 
them ``harmful nonnative weeds'' does not resolve the problem, because 
``harm'' is a relative term and the bill does not specify the type of 
``harm'' being described. Terminology should be consistent throughout, 
and ``noxious weeds'' offers the best understanding of what is covered 
under the bill.
    The term ``weed management entities'' needs clarification. This is 
an important concept in the bill because these entities are the 
ultimate recipients of the federal funds that the bill would 
distribute. Because of the way in which the bill is structured--with 
funds being distributed through the states--we suggest that there be 
some element of local government involved in a weed management entity, 
or at the very least some recognized coordinated resource management or 
watershed management group. To be effective, control of noxious weeds 
needs to occur at the widest appropriate geographical level to prevent 
their return or their spread. Furthermore, noxious weeds need to be 
controlled across property lines in order to achieve the same result. A 
concern that we have with the current undefined ``weed management 
entity'' is that money will be awarded for projects that are less than 
encompassing, and the problem sought to be resolved would reappear a 
short time later. Noxious weed control efforts must be coordinated 
among affected landowners in order to be effective.
    Section 7(d)(4) of the bill provides that a weed management entity 
may undertake a project on public or private lands with the consent of 
the landowner ``other than land that is used for production of an 
agricultural commodity.'' Does this mean that no such projects may be 
undertaken on those lands, or does it mean that no consent is required 
before entering those lands? Section 9 of the bill'requiring landowner 
consent for any actions taken on his property--would suggest the former 
interpretation. We would very strongly object to an interpretation that 
would allow entry onto agricultural lands without having the consent of 
the landowner, and we could not support a bill that would allow entry 
without consent. As written, this section of the bill is ambiguous. The 
bill needs to be amended to eliminate this ambiguity.
    The bill restricts eligible projects to a single state. For reasons 
set forth in (2) above, we do not believe worthy projects should be 
rejected solely on the basis that is crosses state lines. We believe 
that states should be encouraged to jointly address weed problems that 
are common to them, and joint projects that might receive funding from 
two or more states, assuming they all deem it worth of funding under 
this Act, would foster that cooperation. Because weeds do not stop at 
state lines, funding for weed control projects should not stop at state 
lines either.
    We look forward to working with the committee to craft a bill that 
will provide some relief to the massive noxious weed problem that faces 
farmers and ranchers across the country.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3181.021
                                 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
